by Pro Se Petitioner Stan J. Caterbone - From U.S. Third Circuit Case No. 19-2712 and U.S. District Court 19-2052
-~w

£? (TSs (D

abb

No.

r;
I

r
,v-

c^ f ‘f, n n. r

IN THE
SUPREME COURT OF THE UNITED STATES

Stan J. Caterbone

— PETITIONER

(Your Name)
vs.

Lancaster County Prison _ respondent(S)

FILED
AUG 1 2 2020
SUPlREblEFcbuRTLnl%K

ON PETITION FOR A WRIT OF CERTIORARI TO

______ U.S. Third Circuit Court of Appeals__________
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

Stan J. Caterbone, Pro Se
(Your Name)

1250 Fremont Street
(Address)

Lancaster, PA

17603

(City, State, Zip Code)

(717)327-1566
(Phone Number)

U.S. Supreme Ct. Petition re Lancaster County Prison

Page No. 1 of 40

Monday August 31,2020

\

by Pro Se Petitioner Stan J. Caterbone - From U.S. Third Circuit Case No. 19-2712 and U.S. District Court 19-2052

QUESTIONS PRESENTED
QUESTION NUMBER ONE: Is there Judicial Misconduct and Abuse of Authority
and are the courts attempting to hide the fact that there are abuses by the military and
intelligence agencies, possibly originating out of the National Security Agency, or NSA
including COITELPRO operations - and still going on today - all of which entail
numerous violations of the U.S. Constitution?
ANSWER TO QUESTION NUMBER ONE: YES. Pro Se Petitioner Stan J. Caterbone is
imploring this court to consider a RENEWING THE CHURCH COMMITTEE HEARINGS OF
THE 1970'S INTO ABUSES BY THE MILITARY/INTELLIGENCE/LAW ENFORCEMENT
COMMUNITIES.

U.S. Supreme Ct. Petition re Lancaster County Prison

Page No. 3 of 40

Monday August 31,2020

by Pro Se Petitioner Stan J. Caterbone - From U.S. Third Circuit Case No. 19-2712 and U.S. District Court 19-2052

LIST OF PARTIES
[X ] All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of all
parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:
LIST OF PLAINTIFF-APPELLANTS

1. STAN J. CATERBONE
LIST OF RESPONDENTS

I.

2. Jeffrey B. Wall
Counsel of Record

3. Acting Solicitor General
United States Department of
Justice 950 Pennsylvania
Avenue, NW
Washington, DC 20530-0001

4. 202-514-2217

SupremeCtBriefs@USDOJ.gov

U.S. Supreme Ct. Petition re Lancaster County Prison

Page No. 4 of 40

Monday August 31,2020

by Pro Se Petitioner Stan J. Caterbone - From U.S. Third Circuit Case No. 19-2712 and U.S. District Court 19-2052

TABLE OF CONTENTS

PAGE No.

PETITION FOR A WRIT OF CERTIORARI

1

PROOF OF SERVICE

2

.

QUESTIONS OF WRIT

3

LIST OF PARTIES

4

TABLE OF CONTENTS

5

OPINIONS BELOW

6

JURISDICTION

7

TABLE OF AUTHORITIES CITED

8

STATEMENT OF THE CASE

14

REASONS FOR GRANTING THE WRIT

28

COCSLUSION

40

INDEX TO APPENDICES
APPENDIX A - OPINIONS BELOW
APPENDIX B - Lancaster County Prison Memorandum
APPENDIX C - United Nations Special Rapporteur on Torture
APPENDIX D - COVERT ACTION and The Media
APPENDIX E - UPDATED The Monitization of COINTELPRO STAN 3. CATERBONE
PODCAST - THE TARGETING by the Lancaster City Police and Federal Agents
-The COPS GANG-STALKING PROGRAM of WEDNESDAY July 29, 2020
APPENDIX F - Resume of Pro Se Petitioner Stan J. Caterbone

U.S. Supreme Ct. Petition re Lancaster County Prison

Page No. 5 of 40

Monday August 31,2020

by Pro Se Petitioner Stan J. Caterbone - From U.S. Third Circuit Case No. 19-2712 and U.S. District Court 19-2052

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW

[x] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix A
the petition and is

to

[ ] reported at U-S. Third Circuit Court of Appeals

; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix _A
the petition and is

to

[ ] reported at U-S- District for the Eastern District of Pennsylvania

I or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix_____ to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the _
court
appears at Appendix
to the petition and is
[ ] reported at
I or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

U.S. Supreme Ct. Petition re Lancaster County Prison

Page No. 6 of 40

Monday August 31,2020

by Pro Se Petitioner Stan J. Caterbone - From U.S. Third Circuit Case No. 19-2712 and U.S. District Court 19-2052

JURISDICTION

[ ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was

Ju|y27-2020_____________

[ ] No petition for rehearing was timely filed in my case.
[x] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: July 27,2020_____
, and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including______
(date) on
(date)
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix______
[ ] A timely petition for rehearing was thereafter denied on the following date:
-------------------------------- , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

U.S. Supreme Ct. Petition re Lancaster County Prison

Page No. 7 of 40

Monday August 31,2020

by Pro Se Petitioner Stan J. Caterbone - From U.S. Third Circuit Case No. 19-2712 and U.S. District Court 19-2052

TABLE OF AUTHORITIES CITED
The Following is Cited From The ACLU National Prison Project
Prisoners are protected by § 504 of the Rehabilitation Act of 1973, 29 U.S.C. § 794(a),
and by Title II of the Americans with Disabilities Act, 42 U.S.C. § 12131, etseq. 1
The Rehabilitation Act was created to apply to federal executive agencies, including the
Bureau of Prisons, and to any program that receives federal funding. The ADA was created to
regulate state and local government programs, even those that do not receive federal funding.
The Supreme Court recently held in Goodman v. Georgia that Title II of the ADA validly
abrogates state sovereign immunity - as least insofar as it creates a private cause of action for
damages for conduct that actually violates the Fourteenth Amendment. 2
In the prison context, this means that a disabled prisoner who is incarcerated in state
prison may sue the state for monetary damages under the ADA based on conduct that
independently violates the Due Process Clause of the Fourteenth Amendment (incorporating the
Eighth Amendment's prohibition on cruel and unusual punishment). Thus, although the ADA
arguably prohibits a broader swath of state conduct than what is barred by the Eighth
Amendment, it remains an unsettled question whether disabled prisoners can seek damages for
conduct that violates the ADA but not the Constitution.3
Applying these statutes in the prison context Courts analyze the ADA and Rehabilitation
Act in basically the same way. If the ADA applies, it should be interpreted to give disabled
people at least as many rights as the earlier Rehabilitation Act.4
Thus, disabled prisoners may use cases about the Rehabilitation Act to help them
interpret the ADA. 1 - SeePennsylvania Dep't of Corrections v. Yeskey, 524 U.S. 206 (1998)
(ADA); Onishea v. Hopper, 171 F.3d 1289 (11th Cir. 1999) (Rehabilitation Act); Bonner v. Lewis,
857 F.2d 559 (9thCir. 1988) (Rehabilitation Act). 2 126 S.Ct. 877 (2006). 3Seeid. at 882.
4Bragdon v. Abbott, 524 U.S. 624, 632 (1998). Updated 11/05. 1
How do you define disability?The ADA defines "disability" as:
(A) a physical or mental impairment that substantially limits one or more of the major life
activities of such individual;
(B) a record of such an impairment; or
(C) being regarded as having such an impairment.5A "physical or mental impairment" could
include hearing and vision problems, mental illness, physical disabilities, certain diseases, or
many other conditions."
Major life activities" may include many private or public activities, such as seeing,
hearing, reproduction, working, walking or movement.6 For ADA purposes, a physical
impairment substantially limits major life activities only if it prevents or severely restricts the
individual from performing tasks of central importance to daily life.7"Substantially limited"
U.S. Supreme Ct. Petition re Lancaster County Prison

Page No. 8 of 40

Monday August 31, 2020

by Pro Se Petitioner Stan J. Caterbone - From U.S. Third Circuit Case No. 19-2712 and U.S. District Court 19-2052

means that the person's participation in the activity is significantly restricted.8 The restriction
does not need to completely prevent the disabled person from participating in the activity,but it
must do more than merely cause him or her to participate in a different manner. 9 If a disability
is corrected to the point that it does not substantially limit a major life activity, it no longer
counts as a disability under the ADA.IOCourts usually look at the facts of each lawsuit to decide
if a person is disabled according to the ADA and Rehabilitation Act.
For example, the Supreme Court has said that a person infected with HIV (human
immunodeficiency virus), the virus that causes AIDS, may be disabled even if that person does
not have any symptoms of the disease.il On the other hand, a person with impaired vision in
one eye is disabled only if his vision substantially limits participation in a major life activity. 12
Enforcing your legal rights Title II of the ADA states: [N]o qualified individual with a
disability shall, by reason of such disability, be excluded from participation in or be denied the
benefits of the services, programs, or activities of a public entity, or be subjected to
discrimination by any such entity.13
To bring a lawsuit under the ADA and/or the Rehabilitation Act, disabled prisoners must show:
(1) that they are disabled within the meaning of the statutes,
(2) that they are "qualified" to participate in the program, and
(3) that they are excluded from, are not allowed to benefit from, or have been subjected to
discrimination in the program because of their disability.14
Under the Rehabilitation Act, prisoners must also show that the prison officials or the
governmental agency named as defendants receive federal funding. 15Courts generally require
factual evidence that shows the prisoners are qualified for the programs, sought participation,
and were denied entry based upon their disabilities.16 Disabled prisoners are "qualified" to
participate in a program under the ADA and the Rehabilitation Act if they meet the program
requirements. 17
Which rights can be enforced? Disabled prisoners have sued to get equal access to
facilities, programs and services. For example, inmates and arrestees have sued to be able to
use prison showers and toilets and to be protected from injury or the risk of injury. 1812
Kirkingburg at 566. 13 42 U.S.C. § 12132. 14 42 U.S.C.§ 12132; 29 U.S.C. § 794(a). 15 29 U.S.C.
§ 794(a). 16 See, e.g., Lue v. Moore, 43 F.3d 1203, 1205, 1206 (8th Cir. 1994) (blind inmate
denied access to vocational training programs may bring claim for damages and affirmative
relief under Rehabilitation Act, but denying relief because inmate failed to prove he had applied
to programs or requested accommodations). 17 Southeastern Community College v. Davis, 442
U.S. 397, 406(1979) ("An otherwise qualified person is one who is able to meet all of a
program's requirements in spite of his handicap."). 18 Gorman v. Easley, 257 F.3d 738 (8th Cir.
2001) (injury during transportation by police in vehicle without wheelchair restraints);
rev'donothergrounds, Barnes v. Gorman, 536 US 181 (2002);Kaufman v. Carter, 952 F.Supp.
520, 523-24 (W.D. Mich. 1996) (failure to provide access to bathrooms and showers). Updated
11/05. 3
Deaf and hearing-impaired prisoners have won cases to get sign language interpreters for
disciplinary hearings, classification decisions, HIV-AIDS counseling, and educational and
vocational programs. 19
Disabled prisoners have challenged inadequate medical care and prison officials’ failure to
provide them with medical supplies or devices such as wheelchairs or canes.20
These cases may combine ADA claims with arguments that prison officials have violated
the Eighth Amendment of the U.S. Constitution by being deliberately indifferent to prisoners'
serious medical needs.21
Disabled prisoners have challenged their confinement in isolation and segregation units
U.S. Supreme Ct. Petition re Lancaster County Prison

Page No. 9 of 40

Monday August 31,2020

by Pro Se Petitioner Stan J. Caterbone - From U.S. Third Circuit Case No. 19-2712 and U.S. District Court 19-2052

under the ADA and the Rehabilitation Act.22
In one case, for example, the Seventh Circuit ruled that prison officials discriminated
against a quadriplegic prisoner in Indiana who was housed in an infirmary unit for over one
year and was thereby denied access to the dining hall, recreation area, visiting, church, work,
transitional programs and the library.23
However, some courts have upheld policies segregating HIV-positive prisoners because
of the risk or perceived risk of transmission.24
Limitations on these rights Prison officials are not required to provide accommodations
that impose "undue financial and administrative burdens" or require "a fundamental alteration
in the nature of [the] program."25
Prison officials are also allowed to discriminate if the disabled inmates' participation
would pose "significant health and safety risks" or a "direct threat" to others.26
Finally, some courts have said that prison officials 19 Bonner v. Lewis, 857 F.2d 559 (9th Cir.
1988); Duffy v. Riveland, 98 F.3d 447 (9th Cir. 1996); Clarkson v. Coughlin, 898 F.Supp. 1019,
1027-32 (S.D.N.Y. 1995). 20 Saunders v. Horn, 960 F. Supp. 893 (E.D. Pa. 1997) (failure to
provide orthopedic shoes and cane); Herndon v. Johnson, 970 F.Supp. 703 (E.D. Ark. 1997). 21
See, e.g., Kaufman, 952 F.Supp. 520. 22 Carty v. Farrelly, 957 F.Supp. 727, 741 (D.V.I. 1997)
(prison officials violated ADA by housing inmate not suffering from mental illness with mentally
ill prisoners because his cane was considered security threat). 23 Love v. Westville Correctional
Center, 103 F.3d 558 (7th Cir. 1996). 24 See, e.g., Harris v. Thigpen, 941 F.2d 1495 (11th Cir.
1991), appealafterremand, Onishea v. Hopper, 126 F.3d 1323 (11th Cir. 1997), rev'd, 171 F.3d
1289 (11th Cir. 1999) (upholding policy of segregation and exclusion from programs of HIV­
positive prisoners in Alabama under Rehabilitation Act). 25 Southeastern Community College,
can discriminate against disabled prisoners as long as the discriminatory policies serve
"legitimate penological interests."27
Alternatives to the ADA and Rehabilitation Act Disabled prisoners may make claims for
relief based on the United States Constitution either in addition to, or instead of, ADA and
Rehabilitation Act claims. The Eighth Amendment prohibits any form of cruel or unusual
punishment. For example, federal or state prison officials violate the Eighth Amendment when
staff members are deliberately indifferent to the serious medical needs of prisoners, including
the special requirements of disabled inmates.28
The Fifth and Fourteenth Amendments prohibit government officials from depriving
persons of life, liberty or property without "due process" of law, and the Fourteenth
Amendment requires that all citizens receive the "equal protection" of the law.29
Thus, prison officials may violate the Constitution if they discriminate against disabled
inmates on the basis of their disabilities.30 However, to win an equal protection claim, disabled
persons must prove that there is no legitimate government reason for the discriminatory
policy.31 This is a very difficult standard for prisoners to meet because courts generally give
prison officials wide discretion in administering correctional facilities.
Finally, the laws of some states may provide different or greater legal rights than the
federal laws discussed in this information sheet. Disabled prisoners should investigate this
possibility before bringing suit. 27
Gates v. Rowland, 39 F.3d 1439, 1446-47 (9th Cir.1994) (upholding discriminatory policy on
security grounds based on unsubstantiated fears of other prisoners); compare Yeskey v. Penn.
Dep't of Corrections, 118 F.3d 168, 174-75 (3rd Cir. 1997). 28 Estelle v. Gamble, 429 U.S. 97
(1976) (deliberate indifference to prisoners' serious medical needs constitutes cruel and
unusual punishment); LaFaut v. Smith, 834 F.2d 389 (4th Cir. 1987) (prison officials violated
Eighth Amendment by failing to provide disabled inmate with needed physical therapy and
adequate access to facilities). 29 The Fourteenth Amendment governs actions by state
governments and the Fifth Amendment governs actions by the federal government. 30 See, e.g.,
U.S. Supreme Ct. Petition re Lancaster County Prison

Page No. 10 of 40

Monday August 31,2020

by Pro Se Petitioner Stan J. Caterbone - From U.S. Third Circuit Case No. 19-2712 and U.S. District Court 19-2052

Williams v. Meese, 926 F.2d 994, 998 (10th Cir. 1991) (federal inmate could not bring
employment discrimination claim under Rehabilitation Act but could do so under Fifth
Amendment). 31 Contractors Ass'n of E. Pa., Inc. v. City of Philadelphia, 6 F.3d 990, 1001 (3rd
Cir.1993).
5 42 U.S.C. § 12102(2). 6See, e.g., Bragdon at 639 (finding no basis for "confining major life
activities to those with a public, economic, or daily aspect"). 7Toyota Motor Mfg. Ky. Inc. v.
Williams, 534 U.S. 184 (2002) (finding that a woman with carpal tunnel syndrome was not
necessarily disabled just because she could not perform certain manual tasks on her assembly
line job).
8Albertson's, Inc. v. Kirkingburg, 527 U.S. 555, 563 (1999). 9Bragdon at 641. 10 Sutton v.
United Air Lines, Inc., 527 U.S. 471, 482 (1999); see also Murphy v. United Parcel Serv., 527
U.S. 516 (1999). 11 Bragdon at 641. Updated 11/05.
442 U.S. at 406. 26 School Bd. of Nassau County v. Arline, 480 U.S. 273, 287 (1987) (holding
that a person who poses a significant risk to others is not "otherwise qualified" for the activity,
establishing a four-part test for determining whether contagious disease constitutes such a
risk); 42 U.S.C. § 12182(b)(3). Updated 11/05. 4
Updated 11/05. 5
18 U.S.C. § 1503 OBSTRUCTION OF JUSTICE
CORNELL LAW SCHOOL — www.law.cornell.edu/wex/obstruction_of_justice
"whoever

.corruptly or by threats or force, or by any threatening letter or

communication, influences, obstruct, or impedes, or endeavors to influence, obstruct, or
impede, the due administration of justice, shall be (guilty of an offense)." Persons are charged
under this statute based on allegations that a defendant intended to interfere with an official
proceeding, by doing thins such as destroying evidence, or interfering with duties of jurors or
court officers.
A person obstruct justice when they have a specific intent to obstruct or interfere with a
judicial proceeding.

(ALL COURT CASES, BOTH CIVIL AND CRIMINAL OF PLAINTIFF STAN J.

CATERBONE) For a person to be convicted of obstruction justice, they must not only have the
specific intent to obstruct the proceeding, both the person must know (1) that a proceeding was
actually pending at the time; and (2) there must be a nexus between the defendant's endeavor
to obstruct justice and the proceeding, and the defendant must have knowledge of this
nexus.

U.S. Supreme Ct. Petition re Lancaster County Prison

Page No. 11 of 40

Monday August 31,2020

by Pro Se Petitioner Stan J. Caterbone - From U.S. Third Circuit Case No. 19-2712 and U.S. District Court 19-2052

CASE LAW FOR TORTURE AND JURISDICTION FOR COMPENSATORY DAMAGES
AND REMEDIES
UNITED STATES DISTRICT COURT FOR THE SOUTHERN DISTRICT OF FLORIDA
MIAMI DIVISION CASE NO. 07-21783-CIV-JORDAN
TEOFILA OCHOA L1ZARBE, in her individual capacity, and in her capacity as the personal
representative of the estates of Silvestra Lizarbe Solis, Gerardo Ochoa Lizarbe, Victor Ochoa
Lizarbe, Ernestina Ochoa Lizarbe, Celestino Ochoa Lizarbe, and Edwin Ochoa Lizarbe,
and CIRILA PULIDO BALDE6N, in her individual capacity, and in her capacity as the personal
representative of the estates of Fortunata Baldeon Gutierrez and Edgar Pulido Baldeon,
Plaintiffs,
v.
TELMO RICARDO HURTADO HURTADO, Defendant.

THE RIGHT TO SUE FOR TORTURE
Case l:07-cv-21783-AJ Document 32 Entered on FLSD Docket 02/29/2008 Page 6 of 31
7need "to conduct and adhere to a strict choice of law analysis." Id. at 422-23. In sum, the
Tachiona court held that both federal law and international law apply to ATS and TVPA claims.
The Ninth Circuit also conducted an examination of the applicable choice-of-law for damages in
ATS cases, in Alvarez-Machain v. United States 331 F.3d 604, (9th Cir. 2003) rav'd on other
grounds, Sosa v. Alvarez-Machain, 542 U.S. 692 (2004). After finding that federal common law
applies to the choice-of-law determination, the court held that it should first look to the
Restatement (Second) of Conflict of Laws, which states that choice of law principles in tort law
are governed by the "most significant relationship" test. Id. at 633-34. (citing Section 145
Restatement £6). In order to determine what law has the most significant relationship to the
tort, the Restatement looks to the following factors:
(a) the place where the injury occurred; (b) the place where the conduct causing
the injury occurred; (c)
the domicile, residence, national the relationship, if any, between the parties is centered. Id. At 634. The
court then articulated competing policy factors that should be considered in ATS cases.
These factors included:
"(a) the needs of the interstate and international systems, (b) the relevant policies of the forum, (c) the
relevant policies of other interested states and the relative interests of those states in the determination of
tire particular issue, (d) the protection of justified expectations, (e) the basic policies underlying the
particular field of law, (f) certainty, predictability and uniformity of result, and (g) ease in the
determination and application of the law to be applied." Id. at 634 (citing Section 145 Restatement §6(2)).
TheAlvarez-Machain court held that the totality of the factors, including the "policy of the
United States, as expressed in the ATCA, to provide a remedy for violations of the law of
nations," weighed in favor of applying United States law. Id. Case l:07-cv-21783-AJ Document
32 Entered on FLSD Docket 02/29/2008 Page 7 of 31 8 The federal common law analysis
articulated in these precedents favors the underlying trumped by federal law where the
applicable law is inconsistent with federal common law. As a practical matter, this means that
federal courts typically apply federal common law to damages under the ATS. Here, under
Eleventh Circuit precedent, federal common law would apply to the determination of damages
under the ATS. Under the analysis articulated by the Tachiona court, the law of nations and
federal common law would apply to the damages inquiry under the ATS. Tachiona at 419-20.
Under the Alvarez-Machain standard, the "most significant relationship" test favors the
application of Peruvian law, but the relevant polic considerations articulated in the decision
favor the application of federal common law. The totality of the case law, thus, weighs in favor
of applying federal common law to the determination of damages under the ATS. This Court
should award Plaintiffs damages under federal common law for their ATS and TVPA claims.

8. JURISDICTION FOR COMPENSATORY DAMAGES AND REMEDIES
U.S. Supreme Ct. Petition re Lancaster County Prison

Page No. 12 of 40

Monday August 31,2020

by Pro Se Petitioner Stan J. Caterbone - From U.S. Third Circuit Case No. 19-2712 and U.S. District Court 19-2052

Federal Common Law on Damages
Once it has been determined that federal common law applies to the question of damages, it
becomes necessary to determine how to ascertain what the federal common law of damages is,
as it relates to damages under the ATS and the TVPA. In order to determine or to fashion
federal common law remedies, "courts may be guided by appropriate statutes without adopting
any in their entirety." See Park v. Korean Air Lines Co., 1992 U.S. Dist. LEXIS 16841, 20
(S.D.N.Y. 1992) (citing Moragne v. State Marine Lines, Inc., 398 U.S. 375, 406-408 (1970); 3
This is true under both the ATS, which is simply a jurisdictional grant of that enables plaintiffs
to bring claims for violations of established international law, and under the TVPA, which
creates a specific cause of action for claims of torture and extrajudicial killing. In each case,
absent the federal statute, plaintiffs would have no ability to sue in federal court. 4 The
application of federal common law to damages under ATS and TVPA cases is also supported by
legal commentators. International Human Rights Litig. in U.S. Courts states that in ATS
litigation "[t]he remedy however, is a 'purely domestic tort remedy' governed by 'traditional,
well-established concepts of federal common law/" Beth Stephens, International Human Rights
Litigation in U.S. Courts (Brill Publishers 2008), citing William R. Casto, The New Federal
Common Law of Tort Remedies for Violations of International Law, 37 Rutgers L.J. 635, 641
(2006). Wright 8t Miller states that courts should look to a wide variety of sources, including
"considerations of what rule is best designed to implement the underlying federal policy or
statute involved [and] general considerations of equity jurisprudence." Wright & Miller, Federal
Practice & Procedure § 4518.
Although some courts conceptualize this broad inquiry as a choice of law analysis, they only
follow choice of law principles to the extent those principles are consistent with the federal
common law policy objective - enforcing the intent of the ATS. Most federal court decisions that
perform any choice of law analysis do so in the context of an inquiry over other aspects of ATS
law, rather than damages. See e.g. In re Estate of Ferdinand Marcos Human Rights Litigation
(Hiiao v. Marcos) 25 F.3d 1467, 1475 (9th Cir. 1994), cert, denied 513 U.S. 1126 (1995)
(abatement); Estate of Cabello v. FernandezLarios, 157 F.Supp.2d 1345 (S.D. FI. 2001
(standing). Many of these courts, although notably not the Eleventh Circuit, cite to the
Restatement 2nd of Conflicts or refer to more traditional choice of law principles drawn from
United States Supreme Court holdings such as Lauritzen v. Larsen 345 U.S. 571 (1953). See e.g.
Tachiona at 420 (reviewing pre-2002 case law on choice of law issues). One outlier court based
the choice of law analysis on the law of the U.S. state in which the federal court sits.
Presbyterian Church of Sudan v. Talisman Energy Inc., 453 F.Supp.2d 633 (S.D.N.Y. 2006)
(appeal pending). But federal courts have consistently refused to be shackled by any
conventional choice of law principles in ATS cases and if they conduct a choice of law analysis at
all, they do so only within the larger context of the federal common law inquiry, which itself
allows reference to a broad range of legal principles.

9. JUSTICE FOR VICTIMS OF TORTURE AND TERRORISM ACT
[House Report 110-844] [From the U.S. Government Publishing Office]
noth Congress Report HOUSE OF REPRESENTATIVES 2d Session 110-844
September 15, 2008.—Committed to the Committee of the Whole House on State of the Union
and ordered to be printed Mr. Conyers, from the Committee on the Judiciary, submitted the
following REPORT [To accompany H.R. 5167] [Including cost estimate of the Congressional
Budget Office] The Committee on the Judiciary, to whom was referred the bill (H.R. 5167) to
amend the National Defense Authorization Act for Fiscal Year 2008 to remove the authority of
the President to waive certain provisions, having considered the same, reports favorably
thereon with amendments and recommends that the bill as amended do pass.

U.S. Supreme Ct. Petition re Lancaster County Prison

Page No. 13 of 40

Monday August 31,2020

by Pro Se Petitioner Stan J. Caterbone - From U.S. Third Circuit Case No. 19-2712 and U.S. District Court 19-2052

STATEMENT OF THE CASE
Third Circuit Court of Appeals Case No. 07-4474 and 07-4475 is from Pro Se
Petitioner Caterbone's first federal lawsuit filed on May 16, 2005 Captioned CATERBONE v.
Lancaster County Prison, et.al., Case No. 05-2288. This case is included to give this COURT
some perspective as to the legnth and duration of the OBSTRUCTION OF DUE PROCESS and the
TORTURE that Pro Se Petitioner Caterbone has endured. Although the COINTELPRO operation
was started against Pro Se Petitioner Caterbone in 1987, the HARASSMENT AND
VICTIMIZATION OF ELECTROMAGNETIC WEAPONS ATTACKS BEGAN IN 2005. Again, the Social
Security Administration awarded benefits to Pro Se Petitioner Caterbone in 2009 for that same
victimization, which after investigation concluded and determined that the PERMANENT
DISABILITY began in December of 2005. The following is the MEMORANDUM of September 30,
2008.
U.S. DISTRICT COURT CASES 05-2288 and 06-4650 U.S. District Judge Mary McLaughlin
Judgment Date: September 30, 2008
Circuit Judges SLOVITER, BARRY, NYGAARD
DEFENDANTS FOR 07-4474: Lancaster County Prison, Manheim Township Police Department,
Stone Harbor Police Department, Avalon Police Department, Commonwealth Bank i.e. Mellon
Bank, Southern Regional Police Department, Lancaster County Sheriff's Department, Fulton
Bank
ATTORNEYS FOR THE DEFENDANTS: Robert Hallinger, Esq of Appel 8r Yost - Christopher S.
Underhill, Esq of Hartman, Underhill and Brubaker - William H. Howard, Esq of Berwyn, Pa Lawrence D. Mason of Chicago, IL - George M. Gowen, III Esq of Cozen O'Conner, Philadelphia,
PA - Stephanie Carfly of Barley Snyder, Lancaster, PA
DEFENDANTS FOR 07-4476: Lancaster County Prothonotary Randall O. Wenger, Lancaster
County Public Defender Matthew Bomberger, Lancaster County Judge Michael Georgelis,
Lancaster County Leo J. Eckert, Kelly S. Ballentine, Lancaster County Maynard Hamilton Jr.,
Lancaster County Denise Commins, Lancaster County Richard Simms, Lancaster County Steven
Mylin, Lancaster County Judge William G. Reuter, Dauphin County Judge Michael Smith, East
Lampeter Police Department Officer Ronald Bezzard, Lancaster City Police Officer Thomas
Gjurich, Southern Regional Police Department Officer Adam Cramer, Southern Regional Chief of
Police John Fiorill, Southern Regional Police Department Officer Robert M. Fedor, Lancaster
County Sheriff Robert Bourne, Conestoga Postmaster Jolynn Steinman, PA Attorney General's
Office Investigator Nelson Brewster, Millersville Police Department Officer Michael K. Schaefer,
Lancaster County Judge Luis Furina, Lancaster County Judge DONALD TOTARO, and Lancaster
County Detective Michael L. Landis
PER CURIUM
Stanley J. Caterbone appeals from the dismissals of two civil cases for his failure
to comply with the District Court's orders. For the reasons that follow, we will vacate
and remand to the District Court for further consideration.
In May 2005, Caterbone sued Lancaster County prison and others asserting that his
constitutional rights, shareholder rights, civil liberties and "right of due access to the law were
violated (ED. Pa. Civ. No. 05-cv-02288). Several of the Defendants moved to dismiss the
complaint and on June 13, 2006, the District Court granted the motions to dismiss and also
dismissed the complaint as to the non-moving Defendants because they were never properly
served. The following day, Caterbone filed a document which the District Court construed as a
request for leave to file an amended complaint. The District Court granted the request and
subsequently set a deadline of August 20, 2006, for filing amended complaint. The District Court
Indicated that it would dismiss the case with prejudice if Caterbone failed to file an amended
complaint by the deadline.
U.S. Supreme Ct. Petition re Lancaster County Prison
Page No. 14 of 40
Monday August 31,2020

by Pro Se Petitioner Stan J. Caterbone - From U.S. Third Circuit Case No. 19-2712 and U.S. District Court 19-2052

After granting three continents, the District Court set an October 15, 2007 deadline, again
warming Caterbone that failure to comply would result in dismissal with prejudice. The District
Court also stated that it would not grant any additional extensions of time. On October 15,
2007. Caterbone filled enabling, sixty-three page Amendment Complaint and Motion for
Continuance," asserting thirty-eight causes of action against several dozen defendants and
requesting an additional sixty days to file another amended complaint On October 23, 2007, the
District Court issued an order denying the request and dismissing the case with prejudice. The
District Court explained in its order that the incomplete complaint submitted by Caterbone did
not constitute a valid amended complaint, and that he had failed to file a valid amended
complaint in the sixteen months since be was granted leave to do so. Caterbone filed a notice of
appeal, and the appeal was docketed at C.A. No. 07-4474.
Caterbone commenced a second action on October 18, 2006, by filing a complaint
asserting federal civil rights and RICO claims against twenty-five defendants (E.D. Pa. Civ. No.
06-ev-04650). Caterbone requested and was granted leave to proceed in forma pauperis On
November 17, 2006, the District Court issued an order directing Caterbone ta like an amended
complaint containing a more definite statement of his claims or face dismissal pursuant to 28
U.S.C. $ 1915(e)(2XB)(). The District Court also granted Caterbone's motion for continuance,
placing the case in civil suspense until April 19. 2007. After granting two additional
continuances, the District Court insisted him to file a status report on or before August 31,
2007. On September 12, 2007, in response to Caterbone's status report requesting an additional
continuance, the District Court seed in order denying the request and directing him to serve his
amended complaint on the defendants on er before October 15, 2007 noting that the case had
been pending for nearly a year and that he had not yet served any of the defendants. On
October 15, 2007 be filed the same sixty-three page document that he filed in E.D. Pa. No, OS2288, which Included an identical request for an additional sixty days to file an amended
complaint. On October 23, 2007, the District Court entered an order dismissing the case
because be had failed to serve his complaint as directed in the previous order. Caterbone's
appeal in this case was docketed aC.A. No. 07-4475. The two appeals have boen consolidated
for disposition.

II.
Before we discuss the merits of the case we must first determine whether we have
jurisdiction over the appeals. Appellant Fulton Bank and Manheim Township Police Department
have filed motions to dismiss for lack of jurisdiction, arguing that Caterbone's notice of appeal
in CA. 07-4474 was untimely filed. Caterbone has filed responses asserting that the notice of
appeal was timely in both cases.
In a civil case such as this coe, a notice of appeal must be filed within 30 days of the
entry of the District Court's judgment or order. See Fed. R. App. P. 4(XIYA). The time limits
prescribed for filing a notice of appeal in a civil case are mandatory and Jurisdictional.” Bowles
v. Russell. 127 127 S. Ct. 2360, 2363, (2007). Both of Caterbone's cases were dismissed on
October 23, 2007, and he filed notices of appeal on November 23, 2007, or 31 days after the
October 23 orders. November 22, however, was the Thanksgiving holiday, therefore, Caterbone
had until the following day to comply with the thirty-day deadline for filing a notice of appeal
SeeFed. R. App. P.26(a)(l)-(4). Thus, the notices of appeal were timely filed. Accordingly, we
DENY APPELLEES' MOTION TO DISMISS the appeals for lack of jurisdiction.

II.
We have jurisdiction under 28 U.S.C. $ 1291, and we review the District Court's
dismissals for abuse of discretion. Mindek v. Rigatti. 964 F.2d 1369,1373 (3d Cir.1992).
Under Federal Rule of Civil Procedure 41(b), a district court may dismiss an action sua
sponte if a litigant fails to comply with a court order or to prosecute his case. See Link v.
Wabash R.R. Co 370 U.S. 626, 630, 31 (1962). Before dismissing an action, however, a district
court should determine the propriety of punitive dismissals in light of the factors outlined in
Pouiis v. State Farm Fire and Cos. Co. 747 F.2d 863 (3d Cir. 1984). The factors are:
1) the extent of the party's personal responsibility:
2) the prejudice to the opponent:
3) any history of dilatoriness,
U.S. Supreme Ct. Petition re Lancaster County Prison

Page No. 15 of 40

Monday August 31,2020

by Pro Se Petitioner Stan J. Caterbone • From U.S. Third Circuit Case No. 19-2712 and U.S. District Court 19-2052

4) whether the conduct of the party or the attorney was willful or in bad faith;
5) whether effective alternative sanction are available, and
6) the meritoriousness of the claim or defense.
Id. at 868. Only in the rarest of circumstances, those demonstrating the most contumacious of
conduct may a district court dispense with the Poulis factors altogether. See Guyer v. Beard,
907 F2d (1994). See also Spain v. Gallegos, 26 F.3d 439, 454-55(3d Cir. 1994). We have
repeatedly emphasized that the drastic sanction of dismissal is disfavored except in the most
egregious circumstances See United States v. $8,221,877.16 in U.S. Currency, 330 F3d 141,161
(3d Cir. 2003).
The District Court erred by dismissing Caterbone's suits without analyzing the Pull
factors. While it is true, as Appellees argue, that Caterbone delayed filing his amended
complaints for several months, such behavior cannot be characterized as "flagrant bad faith."
See Adams v. Trustees v. Trustees of N.J. Brewery Employer Pension Trust Fund. 29 F.34 863,
875 (3d Cir. 1994) (internal quotation marks and citation omitted). After all, the District Court
granted, and Caterbone relied on, continuances. Nor is this an instance where Caterbone
abandoned the case (Spain where his behavior was so egregious as to amount to an
abandonment of the case (Guver). To the contrary, it appears that Caterbone made a good-faith
effort to file an amended complaint. See Donnelly v. Johns-Manville Sales Corp. 677 F.24 339,
343 (3d Cir. 1982) (behavior not contumacious where effort made to comply with court order).
We do not find that Caterbone's conduct was so contumacious that the District Court could
proceed under Fed. R. Civ. P. 416) without analyzing the Poulis factors at all.
The District Court also improperly dismissed Caterbone's suit in 06-cv-04650 by citing
Caterbone's failure to serve process. As a litigant proceeding in forma pauperis. Caterbone was
not responsible for the service of process. Se 28 USC 1915 d) (the officers of the court shall •
issue and serve all process... see also Welch v. Folsom. 925 F. 2d. 666, 670 (3d Cir. 1991)
(district court erred by dismissing complaint on the ground Cat a plaintiff proceeding in forma
pauperis failed to serve the defendant). Once Caterbone filed his amended complaint, the
District Court was obligated to appoint a United States marshal to effect service. Fed. R. Civ. P.
4(c)(3). In any event, it may be that the dismissal in 06-cv-04650 was prompted by the same
concerns motivating the court in 05-cv-02288.
For these reasons, we will vacate the District Court's ORDER dismissing Caterbone’s
complaints and remand the cases for further proceedings. We emphasize that we are not
holding that the Poulis factors dictate something less than dismissal in this case, we hold only
that the District Court must, at this stage perform a Pooled analysis to provide is exercise of
discretion. Given that Caterbooe filed ideriticul amended complaints in both cases, the District
Court may wish to consider whether the cases should be consolidated on remand.
FORWARD ELEVEN YEARS LATER v. Lancaster County Prison. On June 11, 2019 in U.S. District
Court U.S. District Court Jeffrey Schmehl ORDERED the following "AND NOW this 11th day of
June, 2019, upon consideration of Plaintiff Stan J. Caterbone's Motion to Proceed In Forma
Pauperis and Prisoner Trust Fund Account Statement (ECF No. 4), and his pro se Complaint (EDF
No. 2.) which raises claims under 42 U.S.C. §1983, hit is ORDERED that:
1. Leave to Proceed in forma pauperis is GRANTED pursuant to 28 U.S.C. §1915.
2. Stan J. Caterbone, #065238, shall pay the full filing fee of $350 in installments, pursuant
to 28 U.S.C. § 1915(b), regardless of the outcome of this case. The Court hereby directs
the Warden of Lancaster County Prison or other appropriate official to asses an Initial
filing fee of 20% of the greater of (a) the average monthly deposits to Caterbone's
Inmate account or (b) the average monthly balance in Caterbone's inmate account for the
six-month period immediately preceding the filing of this case. The Warden or other
appropriate official shall calculate, collect, and forward the initial payment assessed
pursuant to this Order to the Court with reference to the docket number for this case. In
each succeeding moth when the amount in Caterbone's inmate trust fund account
exceeds $10,000, the Warden or other appropriate official shall forward payment to the
Clerk of Court equaling 20% of the preceding monthly income credited to Caterbone's
inmate account until the fees are paid. Each payment shall reference the docket number
U.S. Supreme Ct. Petition re Lancaster County Prison

Page No. 16 of 40

Monday August 31,2020

by Pro Se Petitioner Stan J. Caterbone - From U.S. Third Circuit Case No. 19*2712 and U.S. District Court 19-2052

3.
4.

5.
6.
7.

8.

9.

for this case.
The Cleric of Court is directed to SEND a copy of this order to the Warden of Lancaster
County Prison.
The Complaint is DEEMED filed.
The Complaint is DISMISSED [With]out prejudice pursuant to 28 U.S.C. §1915(e)(2)(B)
(ii) to the extent that Caterbone raises claims against Lancaster County Prison.
The Complaint is DISMISSED [With]out prejudice pursuant to 28 U.S.C. §1915(e)(2)(B)
(ii) to the extent that Caterbone raises claims against Cheryl Steberger.
Caterbone is given (30) days to file an amended complaint. Any amended complaint shall
identify all defendants in the caption of the amended complaint in addition to identifying
them in the body of the amended complaint shall state the basis for his claims against
each defendant. The amended complaint must be a complete document. Caterbone shall
provide enough information for the Court to understand what happened to him and how
each Defendant acted to cause him injury. When drafting his amended complaint,
Caterbone should be mindful of the Court's reason for dismissing his claims as explained
in the Courts Memorandum. Upon the filing of the amended complaint, the Clerk shall not
make services until so ORDERED by the Court.
The Clerk of Court shall send Caterbone a blank copy of the Court's form complaint to be
used by a prisoner filing a civil rights action bearing the above civil action number.
Caterbone may use this form to file his amended complaint in the instant case if he
chooses to do so..
If Caterbone fails to file an amended complaint in accordance with paragraph seven (7)
of this Order, his case may be dismissed for failure to prosecute without further notice.

MEMORANDUM
June 11th, 2019
Pro se Plaintiff Stan J. Caterbone, a pretrial detainee confined at Lancaster County Prison
("LCP"), has filed a civil rights Complaint pursuant to 42 U.S. C. §1983 and a Motion to Proceed
In Forma Pauperis. The Defendants are LCP and Cheryl Steberger, the Warden of LCP. Because
it appears that Caterbone is unable to afford to pay the filing fee, the Court will grant him leave
to proceed in forma Pauperis1 For the following reasons, the Complaint will be dismissed with
prejudice as to LCP and without prejudice as to Steberger pursuant to 28 U.S.C. § 1915 (2)(B)
(i)and (ii).

I. FACTS
Caterbone asserts that on numerous dates between when he was taken into custody at
LCP on January 16, 2019 and April 22, 2019, he made requests to staff members for writing
materials and to have legal documents copied so that he could file them with the Lancaster
County Court that is hearing his criminal case and possibly others courts2 (ECF No. 1 at 4-7).

However, as Caterbone is a prisoner, he will be obligated to pay the filing fee in installments
in accordance with the Prison Litigation Reform Act. See 28 U.S.C. § 1915(b).
A search of publicly available records shows that Caterbone was ordered detained on January
17, 2019 at LCP after being arraigned on charges of criminal harassment.
See
Commonwealth
v. Caterbone, CP-36-CR-6961-2018. That charge was nolle prossed on March 8, 2019 after he
was arraigned on charges of stalking. See Commonwealth v. Caterbone, CP-36-CR-921-2019.
Those charges remain pending. Caterbone has been represented by counsel the entire time
he as been detained. A search of publicly available records also shows that Caterbone has a
bankruptcy appeal pending before the Third Circuit. Se In re Caterbone, No. 18-1527. He
also
has two appeals pending decisions of this Court. See Caterbone v. NSA, No. 18-3326
(dismissing earlier civil actions), Caterbone v. Lancaster Cnt. Adult Probation, No. 19-1799
(dismissing habeus petition).
U.S. Supreme Ct. Petition re Lancaster County Prison Page No. 17 of 40
Monday August 31,2020

by Pro Se Petitioner Stan J. Caterbone - From U.S. Third Circuit Case No. 19-2712 and ll.S. District Court 19-2052

Apparently, his requests were not responded to in as prompt a manner as he would have
preferred, (id). He avers that he has been denied access to the United States Supreme Court,
the United States Court of Appeals for the Third Circuit, this Court, other federal district courts,
and the courts of Florida and Pennsylvania, including the Lancaster County courts, (id at 8). He
assets interference with pending cases that he has self-valued at $650 Million for purposes of
his bankruptcy case that is pending before the Third Circuit, (id.) He seeks immediate access
to copying services, immediate charging of his cell phone and access to the contacts he has
saved there, treatment for the suffering from pain and torture resulting in the deterioration of
his ability to walk, and a criminal investigation into his allegations.

II. STANDARD OF REVIEW
The Court will grant Caterbone leave to proceed in forma pauperis because it appears that
he is incapable of paying the fees to commence this civil action. Accordingly, 28 U.S.C. §1915
(e)(2)(b) requires the Court to dismiss the Complaint if, among other things, it is frivolous or
fails to state a claim. A complaint is frivolous if it "lacks an arguable basis either in law or in
fact, "Neitzke v. Williams, 490 U.S. 319, 325 (1989), and is legally baseless it it is "based on an
indisputable meritless legal theory." Deutsch v. United States, 67 F.3d 1080, 1085 (3d Cir.
1995). Whether a complaint fails to state a claim under § 1915 (e)(2)(b)(ii) is governed by the
same standard applicable to motions to dismiss under Federal Rule of Civil Procedure 12(b)(6),
see Toursher v. McCullough, 184 F.3d 236, 240 (3d Cir 1999), which requires the Court to
determine whether the complaint contains "sufficient factual matter, accepted as true, to state
a claim to relief that is plausible on it's face." Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009)
(quotations omitted). Condusory [Law Relating to or being a conclusion of fact presented
without the statement of specific supporting evidence upon which the conclusion is based:
conclusory findings] allegations do not suffice. Id. As Caterbone is proceeding pro se, the Court
construes his allegations leberally. Higgs v. Att'y Gen, 655 F. 3d. 333, 339 (3d Cir 20??).

III. DISCUSSION
The vehicle by which a person may bring suit for a violation of the civil rights is Section
1983 of Title 42 of the United States Code. The Section provides in part:
Every person who, under color of any statute, ordinance, regulation, custom, or asage, of
any State or Territory or the District of Columbia, subjects, or causes o be subjected, any citizen
of the United States or other person within the Jurisdiction thereof to the deprivation of any
rights, privileges, or immunities secured by the Constitution and laws, shall be liable to the
party injured in an action at law, suit in equity, or other proper proceeding for redress.
42 U.S.C$ 1983, "To state a claim under & 1983, a plaintiff must allege the violation of a
right secured by the Constitution and laws of the United States, and must show that the alleged
deprivation was committed by a person acting under color of state law." West . Atkins, 487U
42481988 Caterbone's § 1983 Complaint attempts to start a First Amendment access-to-thecourts claim. Prisoner making an access-to-the-courts claim is required to show that the denial
of access caused actual injury." Jackson v. Whalen, 568 F. App'x 85, 87 (3d Cir. 2014) (per
curiam (quoting Lewis v. Casey, 518 U.S. 343,350 (1976). In other words, a prisoner claiming
the he was denied access to the courts must allege an injury traceable to the conditions of
which he complains. Diaz v. Holder, 532 F. App'x 61,63 (3d Cir. 2013) (per curiam) (affirming
dismissal of denial of access claim where plaintiff failed to tie alleged deficiencies in library to
harm in underlying action). In general, an actual injury occurs when a prisoner demonstrates
that a "nonfrivilous" and "arguable" claim was lost because of the denial of access to the
courts. Chrisiopher v Harbry, S36 US. 403, 415 (2002 "(The underlying cause of action. ...is an
element that must be described in the complaint" Id. Furthermore, the right to access the
courts may be satisfied if the plaintiff has an attorney. Diaz, 532 F. App'x 63 (citing Round
Smith, 30 US. 8178311977 and Peterlin Jeffes, 85S F. 241021104234 Cir. 1988), see abo Peter v
City of Phila, 542 F. App'x 1351371434 Cit. 2013) (per curiam).
To the extent that Caterbone’s claim is based upon an alleged inability to access the
courts of Lancaster County to adjudicate his criminal case, the fact that he has been
U.S. Supreme Ct. Petition re Lancaster County Prison

Page No. 18 of 40

Monday August 31,2020

by Pro Se Petitioner Stan J. Caterbone - From U.S. Third Circuit Case No. 19-2712 and U.S. District Court 19-2052

represented by counsel during the entire time he has been in custody at LCP renders the claim
implausible and subject to dismissal under § 1915 (e)(2)(b)(ii). To the extent that the claim is
based upon his alleged inability to access other courts before which he has pending cases, the
claim is implausible became Caterbone falls to allege that the denial of access caused him any
actual injury. While he alleges interference with his pending cases, he makes no assertion that
a "nonfrivolous" and "arguable" claim was lost in any case.
Additionally, Caterbone has only named LCP and Warden Steinberger as Defendants, The
§1983 claim against LCP is dismissed as frivolous because a jail is not a "person" under Section
1983. Miller v. Curran-Fromhold Corr. Facility, Civ. A. No. 13-7680,2014 WL 4055846. at *2
(E.D. Pa. Aug 13f 2014 (citing Mitchell v. Chester Cty. Farms Prison, 426 F. Supp. 271 (E.D. Pa.
1976) The claim against Warden Steeberger is implausible because no allegation that she was
personally involved in denying Caterbone access to the courts and there is no allegation upon
which to use liability against her in her role as a supervisor of others at LCP. See Barkes v. First
Corr. Med, Inc., 766 F3d 3073163 d Cir. 2014), reversed on other sounds by Taylor v. Barkes,
135 S. Ct. 2042 (2015) (holding that there are only "two general ways in which a supervisordefendant may be liable for unconstitutional acts undertakes by subordinates. First, liability
may attach if they, 'with deliberate indifference to the consequences, established and
maintained a policy, practice or custom which directly caused [the] constitutional harm."..
Second, 'a supervisor may be personally liable under § 1983 if or she participated in violating
the plaintiff's rights, directed others to violate the, or, as the person in charge, had knowledge
of and acquiesced' in the subordinate's unconstitutional conduct" (quoting A.M. Ex rel. J.M.K. v.
Luzerne Cty. Juvenile Det. Cir, 372 F.3d Cir. 2004) (alteration in original).
Accordingly, the Court will dismiss the Complaint with prejudice against LCP and without
prejudice against Steeberger pursuant to 28 U.S.C. $ 1915(e)(2)(B)(i) and (ii). Caterbone will
be granted leave to file an amended complaint within thirty days if he is able to cure the defects
identified by the Court. An appropriate Order follows.

APRIL 20, 2020 THIRD CIRCUIT
PER CURIAM
This disposition is not an opinion of the full Court and pursuant to LO.P. 5.7 does not
constitute binding precedent:
Stanley Caterbone appeals the District Court's order dismissing his amended complaint
for failure to state a claim. For the reasons below, we will summarily affirm the District Court's
order.
In May 2019, Caterbone filed a motion for a preliminary injunction against Lancaster
County Prison and its warden. He complained that while incarcerated in the prison he was not
given writing supplies arid copy services for his legal work. He demanded immediate copy
service, medical treatment, and a criminal investigation. The District Court dismissed the
pleading but gave Caterbone time to file an amended complaint. In its detailed order, the
District Court gave Caterbone explicit instructions on how to provide sufficient information for
his claims.
Caterbone filed an amended complaint, naming the warden, a counselor, a block
sergeant, and the medical provider as defendants. The District Court dismissed the amended
complaint before service pursuant to 28 U.S.C. A§ 1915(e)(2)(B)(ii) for failure to state a claim.
Caterbone filed a timely notice of appeal, and we have jurisdiction under 28 U.S.C. A§ 1291.
Deliberate indifference to serious medical needs In his amended complaint, Caterbone
alleged that while incarcerated he needed medical treatment for chronic pain. He asserted that
he was denied a cane and anti-inflammatory medication previously prescribed by his doctor and
was instead given small doses of naproxen twice a day. In order to state a claim under the
Eighth Amendment for denial of medical care, Caterbone needed to allege that the defendants
were deliberately indifferent to his serious medical needs. Estelle v. Gamble, 429 U.S. 97,10~j05 (1976).
U.S. Supreme Ct. Petition re Lancaster County Prison

Page No. 19 of 40

Monday August 31,2020

by Pro Se Petitioner Stan J. Caterbone - From U.S. Third Circuit Case No. 19-2712 and U.S. District Court 19-2052

A medical need is serious if it is "one that has been diagnosed by a physician as requiring
treatment or one that is so obvious that a lay person would easily recognize the necessity for a
doctor's attention." Monmouth Cty Corr. Inst. Inmates v. Lanzaro, 834 F.2d 326, 347 (3d Cir.
1987). We will assume arguendo that Caterbone's chronic pain is a serious medical need. Thus,
we address whether Caterbone has alleged facts that could establish that the defendants were
deliberately indifferent to that serious medical need.
Caterbone asserted in his amended complaint that Warden Steeberger was responsible
for providing medical treatment at the prison. However, prison officials cannot be held to be
deliberately indifferent merely because they did not respond to the medical complaints of a
prisoner who was already being treated by the prison medical staff.
Durmer v. O'Carroll, 991 F.2d 64,69 (3d Cir. 1993). "Absent a reason to believe (or actual
knowledge) that prison doctors or their assistants are mistreating (or not treating) a prisoner, a
non-medical prison official [] will not be chargeable with the Eighth Amendment scienter
requirement of deliberate indifference." Spruill v. Gillis, 372 F.3d 218,236 (3d Cir. 2004).
Caterbone had not alleged any facts suggesting that Warden Steeburger or the other prison
official defendants had any reason to believe that Caterbone was not being appropriately cared
for by the medical staff. Thus, we will examine the allegations of deliberate indifference with
respect to the remaining defendant, Primecare, the prison medical provider. Primecare cannot
be held responsible for the acts of its employees. See Natale v. Camden County Corr. Facility,
318 F.3d 575, 3 583 (3d Cir. 2003). Rather, Caterbone must show that Primecare had a
pol'i~Yrpr custom that caused the alleged deliberate indifference. Id. At 583-84.
As noted above, Caterbone alleges that he was given naproxen instead of more powerful
anti-inflammatories, While he alleged that Primecare's medical staff took him on and off his
pain medication, he has alleged no facts to support his conclusion that he was taken off the
medication to cause painand suffering and not as an exercise of medical judgment. Nor has he
alleged any policy or custom by Primecare that led to his being taken off of his medication.
Moreover, mere disagreement as to the proper medical treatment will not support a claim under
the Eighth Amendment. Spruill, 372 F.3d at 235. Courts will "disavow any attempt to secondguess the propriety or adequacy of a particular course of treatment ... (which) remains a
question of sound professional judgment." Inmates of Allegheny Jail v. Pierce, 612 F. 2d 754,
762 (3d Cir. 1979) (citations omitted). We agree with the District Court that Caterbone has not
stated a claim for deliberate indifference to any serious medical need.
Denial of access to the courts Caterbone alleged that he was provided the materials and
services needed for his pending legal cases only sporadically. In order to state a claim of the
denial of access to the courts, a prisoner such as Caterbone must allege that his efforts to
pursue a legal claim were hindered and he suffered an actual injury. Lewis v. Casey, 518 U.S.
343, 351 (1996). In dismissing his original complaint for failure to state a claim, the District
Court advised Caterbone of this requirement.
In his amended complaint, Caterbone appeared to allege that, in May *2019, he twice
appealed a state court's order deferring his sentencing on a probation violation until after his
pending criminal charges were resolved. Caterbone alleged that the appeals, were purposefully
mishandled by prison officials to keep him falsely imprisoned and, as a result, the state court
denied his request for relief on June 13, 2019. He claimed that prison employees could not
confirm that the appeals were mailed and that the docket shows that the appeals were not
recorded. However, the electronic state court docket indicates that several filings were received
from Caterbone in May 2019, including a petition for transcripts, a petition for house arrest, a
motion for reconsideration, and three filings labeled "case correspondence." Even if his filings
were not received and docketed as he believed they should be, Caterbone has not alleged any
facts supporting a claim that any mishandling of the mail by prison officials caused the lack of
receipt as opposed to mistakes by the postal service or the state court's clerk's office.
Moreover, even if he had alleged facts showing fault by prison officials, he did not plausibly
allege an actual injury as discussed below.
Caterbone needed to allege an actual injury, i.e., that he was hindered in his efforts to
litigate a non frivolous or arguable claim. Monroe v. Beard, 536 F.3d 198,205 (3d Cir. 2008).
U.S. Supreme Ct. Petition re Lancaster County Prison

Page No. 20 of 40

Monday August 31,2020

by Pro Se Petitioner Stan J. Caterbone - From U.S. Third Circuit Case No. 19-2712 and U.S. District Court 19-2052

Prisoners may proceed on access-to-court claims only for challenges to their sentences or
conditions of confinement, see id. at 205, and Caterbone has failed to allege an actual injury
with respect to any such legal challenge. Caterbone asserted that the mishandling of his
appeals of the order deferring sentence on his probation violation 5 caused him to spend
additional time in jail. However, Caterbone did not's~~lt copies
of the missing appeals or
describe the legal arguments made therein. Nor has he explained how his arguments had any
merit. 2 Thus, we agree with the District Court that Caterbone has failed to state a claim for
denial of access to the courts.
The District Court did not err in dismissing Caterbone’s complaint for failure to state a
claim. Because Caterbone was given an opportunity-to amend his complaint and guidance on
how to cure the defects therein, the District Court did not err in not giving him another chance
to amend his complaint after he failed to cure the defects in his original complaint. See Grayson
v. Mayview State Hosp., 293 F.3d 103,108 (3d Cir. 2002).
Summary action is appropriate if there is no substantial question presented in the appeal.
See Third Circuit LAR 27.4. For the above reasons, as well as those set forth by the District
Court, we will summarily affirm the District Court's order. See Third Circuit 1 According to the
state court electronic docket, Caterbone was represented by counsel on the probation violation.
Caterbone includes with his complaint a copy of an "emergency motion for relief due to
court-related fraud" dated June 11, 2019, that he filed with the state court. In that motion, he
alleged that neither his 77 - page May 4 appeal of the March 19, 2019 order nor the 121-page
May 23 appeal of that order were docketed. The state court denied the motion without giving its
reasons. Thus, the state court was aware of the allegedly missing appeals and did not conclude
that any relief was necessary.
For the reasons given by the District Court, we agree that, to the extent Caterbone sought
to raise a claim based on the prison officials' responses to his grievances, he has failed to state
a claim. See Flick v. Alba, 932 F.2d 728, 725;< (8th Cir. 1991) (no constitutional right to prison
grievance process).
LO.P. 10.6. Caterbone's motion to file exhibits is denied.

U.S. Supreme Ct Petition re Lancaster County Prison

Page No. 21 of 40

Monday August 31,2020

by Pro Se Petitioner Stan J. Caterbone • From U.S. Third Circuit Case No. 19-2712 and U.S. District Court 19-2052

BACKGROUND OF PETITIONER STAN 3. CATERBONE
PRO SE PETITIONER STAN 3. CATERBONE is a private citizen and the majority shareholder
of the United States incorporated business Advanced Media Group, Ltd., PRO SE PETITIONER
STAN J. CATERBONE was a whistle-blower and shareholder in 1987 involving the United States
Defense Contractor International Signal & Control, Pic., known as ISC. In 1992, International
Signal 8k Control was indicted and found guilty of among other things a Billion Dollar Fraud and
export violations concerning illegally shipping cluster bomb technologies, missile defense
systems, and other defense systems to foreign interests including South Africa, Iraq and
Saddam Hussein. Cluster bombs and related technologies are known to have been exported to
Iraq by the Chilean Arms Dealer Carlos Cardoen, a joint venture partner of International Signal
8k Control. The Central Intelligence Agency is confirmed to have been involved in a covert
program to arm Iraq during the 1980's with close ties to International Signal 8k Control, which
allegedly included the help of the National Security Agency, a former end user of International
Signal 8k Control technologies under the early 1980's program Project X. A Presidential Finding
in 1984 by the Bush Administration was executed to implement the program of arming Saddam
Hussein and Iraq with the cluster bomb technologies. Serious allegations of these programs
were the focus of investigations that included the knowledge and supervision of then appointed
nominee for the Director of Central Intelligence Agency, Robert M. Gates.
Since 1987, PRO SE PETITIONER STAN J. CATERBONE has been the victim of vast civil
conspiracy that started in 1987 to cover-up allegations of fraud within International Signal 8k
Control during the negotiations and merger of International Signal 8k Control and Ferranti
International of England. Stanley 1. Caterbone alleges that warrantless surveillance was used to
obstruct justice and moot his constitutional rights in an effort to divert attention away from his
allegations of fraud within International Signal 8k Control back in 1987, and afterwards to the
present as a means to deny his access to the courts for remedy and relief, and Federal False
Claims Act violations. The business of Advanced Media Group has been greatly compromised
and intellectual property stolen during the late 1980's and early 1990's that included
information technology contracts with the United States Government.
Organized stalking and harassment began in 1987 following the public allegations of
fraud within ISC. This organized stalking and harassment was enough to drive an ordinary
person to suicide. As far back as the late 1980's PRO SE PETITIONER STAN 3. CATERBONE knew
that his mind was being read, or "remotely viewed". This was verified and confirmed when
information only known to him, and never written, spoken, or typed, was repeated by others.
In 1998, while soliciting the counsel of Philadelphia attorney Christina Rainville, (Rainville
represented Lisa Michelle Lambert in the Laurie Show murder case), someone introduced the
term remote viewing through an email. That was the last time it was an issue until 2005. The
term was researched, but that was the extent of the topic. Remote Viewers may have
attempted to connect in a more direct and continuous way without success.
In 2005 the U.S. SPONSORED MIND CONTROL turned into an all-out assault of mental
telepathy; synthetic telepathy; and pain and torture through the use of directed energy devices
and weapons that usually fire a low frequency electromagnetic energy at the targeted victim.
This assault was no coincidence in that it began simultaneously with the filing of the federal
action in U.S. District Court, or CATERBONE v. Lancaster County Prison, et. al., or 05-cv-2288.
This assault began after the handlers remotely trained Stan J. Caterbone with mental telepathy.
The main difference opposed to most other victims of this technology is that Stan 3. Caterbone
after being connected to some 20 or so individuals ranging from CIA Operatives to current day
national newscasters and celebrities, Stan 3. Caterbone remains connected 24/7 with a person
who declares that she is Interscope recording artist Sheryl Crow of Kennett Missouri. Stan 3.
Caterbone has spent 3 years trying to validate and confirm this person without success. Most
U.S. intelligence agencies refuse to cooperate, and the Federal Bureau of Investigation and the
U.S. Attorney’s Office refuse to comment. See attached documents for more information.
In 2006 or the beginning of 2007 pro SE PETITIONER STAN 3. CATERBONE began his
extensive research into mental telepathy; mind control technologies; remote viewing; and the
CIA mind control program labeled MK ULTRA and it's subprograms.
(J.S. Supreme Ct. Petition re Lancaster County Prison

Page No. 22 of 40

Monday August 31,2020

by Pro Se Petitioner Stan J. Caterbone - From U.S. Third Circuit Case No. 19-2712 and U.S. District Court 19-2052

In January of 2006, PRO SE PETITIONER STAN J. CATERBONE was detained at every airport
security check point, which was during a policy of random checks, and taken out of line during
travel from Philadelphia, Pennsylvania, to Houston, Texas, and on to Puerto Vallarta, Mexico. At
the Houston Airport, Stanley J. Caterbone was falsely accused of carrying plastics explosives
and taken to an interview room by Homeland Security officials. Stanley J. Caterbone was also
detained for three days in Mexico, and was not provided with an opportunity to gain access to a
flight out of the country by Mexican Officials.
Today, PRO SE petitioner STAN J. CATERBONE is a pro se litigant in several state and local
courts, in an effort to be restored to whole since the WHISTLEBLOWING of 1987. Most notable
is CATERBONE v. The National Security Agency, NSA, et. al. In the UNITED STATES COURT OF
APPEALS FOR THE THIRD CIRCUIT CASE NO. 17-1904.
That case is a PRELIMINARY
INJUNCTION FOR EMERGENCY RELIEF FILED TO IMMEDIATELY HALT THE OBSTRUCTION OF
JUSTICE THAT IS BEING ADMINISTERED THROUGHT THE ILLEGAL COINTELPRO PROGRAM
COUPELD WITH THE TORTURE PROGRAM.
The following is a memo of a meeting with ISC executive Mr. Lawrence Resch and
Mr. PRO SE PETITIONER STAN J. CATERBONE at his office at Financial Management Group,
Ltd., which took place on June 23, 1987.
"Mr. Lawrence Resch, of San Clamente, California, was a long time associate of Mr. James
Guerin who worked as a marketing consultant, and was an ISC executive prior to the
company going public in 1982. He served as Director of Marketing and head of Lancaster
operations for then defunct United Chem Con, an affiliate of ISC. He was sued by Ferranti
International in 1990 for $189 million dollars and indicted and found guilty by
prosecutors for his role with ISC and served a jail term.
Upon the arrival of Mr. Larry Resch, Stan Caterbone met him in the lobby of Financial
Management Group, Ltd, at which time Larry Resch said "Carl Jacobson could not attend,
we had to suddenly fly him out of the country early this morning (flew to Chile)" The
meeting was started with the subject of the financial difficulties of United Chem Con and
possible alternatives. Larry Resch specifically addressed the possibility of moving the
operations of United Chem Con to another facility, with specific regards to the Renovo
Plant. Larry Resch specifically addressed the financing capabilities of Stan Caterbone,
along with possible management opportunities. Larry Resch also gave financial
statements and documents to Stan Caterbone for the latest fiscal year for United Chem
Con. Stan Caterbone went on to allege that United Chem Con had embezzled some
$15,000,000 from the United States Government for contracts that contained
improprieties. Stan Caterbone also alleged improprieties of International Signal & Control
and James Guerin, with specific regards to its role in the United Chem Con, and its
business activities as related to government contracts. Stan Caterbone noted that he, as a
legal shareholder of International Signal & Control was concerned about improper
business activities.
Larry Resch was taken by surprise by all of the above. Stan Caterbone became quite
upset by the evasiveness and the lack of specifics with regards to Larry Resch's
conversation. In efforts to thwart any further communication from James Guerin, United
Chem Con, or International Signal & Control, Stan Caterbone demanded a retainer fee of
$10,000 before anyone contacted him again."

U.S. Supreme Ct. Petition re Lancaster County Prison

Page No. 23 of 40

Monday August 31,2020

by Pro Se Petitioner Stan J. Caterbone • From U.S. Third Circuit Case No. 19-2712 and U.S. District Court 19-2052

Today, the TRUMP ADMINISTRATION is using the old J. Edgar Hoover COINTELPRO
Program while at the same time expanding the powers of local law enforcement through 3
Executive Orders in order to Militarize Local Police Departments. The following are the effects
of the ILLEGAL AND LANDMARK COINTELPRO PROGRAM that is used against me:
As Contained In The Lancaster County Court Of Common Pleas Case No. 08-13373 Where
President Donald Trump Was Added To The Defendant's List On January 23, 2017 And
Other State And Federal Court Cases; The Trump Administration Is Utilizing An Illegal
COINTELPRO Program To Harass The Appellant, Stan J. Caterbone And Obstruct Justice
By Directing Causing It Almost Impossible For The Continuation Of Those Same Civil
Actions.
The Trump Administration Signed (3) Executive Orders That Broadened The Powers Of
The City Of Lancaster Police Department To Coincide With The Above.
The Fact That Complainant Stan J. Caterbone's History With The Lancaster City Police
Department Traces Back To The 1960'S With The Targeting Of Complainant Stan J.
Caterbone's Father, Samuel Caterbone, Jr. In The Very Same Manner As The Current
Targeting Of Complainant Stan J. Caterbone Today Is Reason Enough To Have
Summary Judgments In All Civil Actions In Federal And State Courts Immediately
Ordered.
THE TARGETING CONSISTS OF THE FOLLOWING:
- • An Unprecedented Harassment Program Carried Out By Residents, Neighbors, Stalking
Groups, Law Enforcement, And Others.
An Unprecedented Hacking Program Of All Electronic Equipment.
Unprecedented Torture Program Utilizing Electromagnetic And Other Exotic Weapons
Developed By The Department Of Defense And Intelligence Community.
An Unprecedented Campaign Designed To Drain The Appellant Stan J. Caterbone Of All
Cash
Resources, Which Has Resulted In A Cash Position Of Some $60,000.00 In June Of
2015 To Nothing Today.
The Unprecedented Campaign Of False Statements By The Residents Of 1252 Fremont
Stree And The Perjured Statements Of Lancaster City Police In Recent Criminal
Summary Offenses Filed In District Magistrate Adam Witkonis Court.
An Unprecedented Campaign Of Daily Harassment's And Threats By The Residents Of
1252 Fremont Street, Which Has Been Ongoing Since 2006.Un Unprecedented
Campaign Of Threats Of Physical Harm In Public Spaces.
The Unprecedented Campaign Of The Breaking And Entering Into The Residence Of
The Complainant Stan J. Caterbone Causing Vandalism, Thefts, Poisoning Of Food,
And The Strategic Placement Of Cock Roaches On A Daily Basis. This Also Involves
The Theft And Manipulation Of Court Filings And Evidence.
The Above Are All Facilitated And Supported With Violations Of Due Process In The
Complaints To Law Enforcement.
Complainant Stan J. Caterbone, Pro Seam Receiving Retaliatory Adverse And
Harassing Treatment Due To The Fact That 1., I, Complainant Stan J. Caterbone, Pro
Se, Am The Amicus For Former Pennsylvania Attorney General Kathleen Kane In Case
No. 3575 EDA 2016 In The Eastern District Of Superior Court, Currently In Litigation.

U.S. Supreme Ct. Petition re Lancaster County Prison

Page No. 24 of 40

Monday August 31,2020

by Pro Se Petitioner Stan J. Caterbone - From U.S. Third Circuit Case No. 19-2712 and U.S. District Court 19-2052

COVERT ACTION
The Limits of Intervention in the Postwar Word
by Gregory F. Treverton,
Investigator for the CHURCH COMMITTEE Copyright 1987
PREFACE
This book originated more than a decade ago when I went to work for the first Senate
Select' Committee on Intelligence usually called the Church Committee after its chairman, Frank
Church-formed to investigate intelligence abuses in the after math of Watergate. It was for me
an exhilarating, frustrating introduction to covert action. Since then I have had the chance to
reflect on the issues posed by covert intervention into the politics of foreign nations while an
academic and a government official, in both Congress and the executive, as a Senate in
investigator of covert action and as a White House consumer of intelligence.
It seemed to me then and now that the debate over covert action too often painted it only
in black and white: for some Americans, it was a moral evil given what America stands for,
while others saw it as a moral imperative given the relentless conflict with the Soviet Union.
This book is my attempt to treat a passionate subject with more reflection, to hazard judgments
about four decades of American covert action. I look at the past to seek guidance for the future:
what has changed and what has not in the circumstances that surround decisions to intervene
covertly in foreign nations.
Yet covert action is unpromising terrain for serious analysis, even more so than most of
modern foreign policy. It is, after all, meant to be kept secret at the points of both decision and
action, as closely guarded as any of government secrets. To be sure, covert actions seldom
remain secret; their broad contours and details seep into the public domain.
I draw examples from a number of major American covert actions in the postwar period.
For the earlier cases, particularly . Guatemala in 1954 and Cuba in 1961, many documents have
become available. For Iran in 1953, less documentary evidence is available and many
participants have died; what I have drawn from are memoir accounts. In addition, America's
more recent encounters with Iran have spawned considerable scholarly interest in this earlier
encounter. Still, while the broad outline of the story is clear, details of the processes of
authorization and control within the U.S. government are in short supply, and a number of
anecdotes must be treated as illustrative, and not necessarily factual in all particulars.
In one case, Chile, I am fortunate. When the Church Committee on Intelligence was
formed in 1974, alleged improprieties by intelligence agencies during the Watergate affair were
its first agenda item; Chile was its second. In the early 1970s, a number of newspaper articles
had begun to detail, and sometimes distort, American covert action in Chile, particularly from
1970 to 1973, both before and during the presidency of Salvador Allende, a self-proclaimed
Marxist. The Committee determined, therefore, that it would layout and discuss what the United
States had done in Chile.
We regarded the investigation as a once-in-a-generation clearing of the air. My report,
Covert Action in Chile, 1963-1973, served as the basis for that hearing; it is the complete story,
with the benefit of access to all the relevant CIA and State Department secret cables. This book
is, I hope, enriched by my own government service, but I have been careful not to abuse the
obligations of that service. Accordingly, I sent a draft to the current Senate Intelligence
Committee for review, to make sure I had not inadvertently violated those obligations.
For the more recent cases, a few documents are available ~bout Angola, and the
investigations have provided a wealth of reformation about Nicaragua and Iran. All of these
U.S. Supreme Ct. Petition re Lancaster County Prison

Page No. 25 of 40

Monday August 31,2020

by Pro Se Petitioner Stan J. Caterbone - From U.S. Third Circuit Case No. 19-2712 and U.S. District Court 19-2052

episodes Zve been controversial, and there has been investigative jour
nalism aplenty. I have checked and supplemented these investigations with interviews, which I
refer to in general terms in the notes.
Nevertheless, I am vulnerable in the lack of some details and to pitfalls of other sorts.
What has been told to the public is bound to be colored by the memories, or the stakes, of those
who do the telling, whether they are former participants or journalists. It may even be that my
assessments are skewed systematically; suppose that the "failures" of covert action are more
likely to be revealed than the "successes?" That is possible but unlikely: if success has a
thousand authors, that is true even of zevert successes, and so a major success would have
found its way into the public view. Even documents must, in a world of teaks and investigations,
be treated with skepticism, for they may have been written more with an eye to history-or self
protection-than to accuracy.
Yet covert action is a serious, sometimes searing, issue. Moreover, as I delved into the history
of covert action, I realized to what extent it mirrored the history of postwar America and its
encounter with the world. And so my conclusions, while still speculative, rest on a broader base
than a dozen cases, for in t<~ose cases are displayed changes in both the United States and the
world, changes that form the backdrop for thinking about covert action in the years ahead. Also
I was struck by how much my general insights into the politics of decision making helped me
understand the Central Intelligence Agency as an organization and the stakes of political
leaders who decided whether or not to embark on covert intervention.
For this book, unlike most scholarly enterprises, I have no pecuniary debts to
acknowledge, but I do have a number of intellectual ones that I happily recognize. I owe an
unusual debt to the CIA officers with whom I worked most closely during the Church Committee
investigations, especially Walter Elder, and
Seymour Bolton, the latter recently deceased. For Bolton, old habits of tradecraft had persisted;
his favorite idea of a meeting was drinks at two in the morning at a Georgetown tavern. While
we argued, I learned, and if I doubted the wisdom of some CIA activities, I never doubted these
officers' commitment to serving their country ■ ■
I have received comments on earlier drafts, sometimes more than once, from John Brass,
Leonard Bushkoff, William Colby, Richard Cottam, Robert Coulam, Stephen Flanagan, Derek
Leebaert, Richard E. Neustadt, and Raymond Vernon, as well as from Martin Kessler of Basic
Books. My debt to Loch Johnson, Church Committee colleague and friend, will be clear in
chapter 7 but is present throughout the book. Martin Linsky discussed the book's themes over
and over while we ran, then pored over drafts when stationary. As he has done at other times,
Robert Klitgaard went through my draft in great detail, pressing me to sharpen my prose and to
ask myself why the causal arrows pointed in one direction rather than the other. Julie Pearl and
James Dickinson provided valuable research assistance. To these patient people, and to several
others whom I cannot name, I am extremely grateful.
Finally, one person I happily can name-my wife, Glenis more responsible for this book
than she can know.
Those whose minds are already made up no doubt will criticize the book from both sides,
either as another blow to America's ability to meet the global Soviet challenge or as an apology
for intervention in the politics of foreign nations. Rather than taking solace from these opposite
criticisms as an indication that 1 must be doing something right, I hope the book will help those
who are concerned but whose minds are not closed. In any case, I alone am responsible for the
judgments that follow. It is for the reader to see if they are convincing.

U.S. Supreme Ct. Petition re Lancaster County Prison

Page No. 26 of 40

Monday August 31,2020

by Pro Se Petitioner Stan J. Caterbone - From U.S. Third Circuit Case No. 19-2712 and U.S. District Court 19-2052

THE CUMULATIVE RESULTS OF THE ABOVE LAYS THE FOUNDATION FOR AN
UNPRECDENTED LANDMARK CASE OF HUMAN RIGHTS VIOLATIONS AND ANTI­
TRUST VIOLATIONS.
It is too easy for present and future administrations to abuse their power and utilize
warrantless surveillance as a means of subverting and obstructing justice for those that are
engaged in Whistle-Blowing cases that concern National Security. Without the proper oversight
and judicial review, a Whistle Blower can be place on terrorist lists for malicious reasons
without the knowledge or just cause. This is in direct conflict with keeping our democracy free
of corruption while adhering to the spirit of the constitution in the manner our founding fathers
envisioned.
Activists, Citizens, and Voters must ensure that constitutional rights of private citizens
are not compromised and justice subverted through information obtained from warrantless
surveillance upon which there is no just cause for any allegations or association with terrorism.
Whistle-Blowers are inherently supportive of a system of checks and balances within our
government that go beyond our constitutional doctrines regarding the same. Whistle-Blowers
ensure that the rule of law is universally applied to all government officials in all branches of
government. The Federal False Claims Act and its provisions protect individuals from abuse of
power, while providing relief and remedies for those that were wronged and those that had the
courage to cite a wrong.
U.S. Sponsored Mind Control Systems are also used to compliment these illegal programs to
silence WHISTLEBLOWERS and others that our government recognizes as a threat to their
illegal strategies and those that are seeking the TRUTH. Synthetic Telepathy Coupled with
Electromagnetic Weapons used for pain have been the ELECTRONIC WEAPONS OF CHOICE by
the PERPETRATORS committing these haneus crimes against, STAN J. CATERBONE since at least
2005. My father, U.S. Navy 1943 to 1946) was a victim of MK-ULTRA and experienced the same
effects since at least the early 1960's and my brother, Sammy, (U.S. Air Force 1969-19710
received the same victimization through the use of the LSD experiments of the same program.
PRO SE PETITIONER STAN J. caterbone stated and declared that the initial time of connection
with the SYNTHETIC TELEPATHY consisted of months of NON-STOP INTERROGATIONS BY MALE
SUBJECTS WHO IDENTIFIED THEMSELVES AS CIA OPERATIVES. The interrogations lasted hours
upon hours at a time and covered just about every aspect of AMICUS STAN J. CATERBONE'S life.
The "HANDLERS", for lack of a better term, not only focused on the WHISTLEBLOWING
ACTIVITIES OF ISC IN 1987, but also covered mundane everyday experiences, as a form to
harass and torture.
In late spring of 2005, the "HANDLERS" introduce females to the sessions. To this day, the
torture consists of the same, interrogations mixed in with harassment, sex, and humor. It is
the opinion of PRO SE petitioner STAN J. caterbone, that the only way to keep from
desensitizing and numbing to the harassment and pain is to experience pleasure and laughter
so as to keep the magnitude of the pain at it's highest level.
THIS CAN BE SUBSANTIATED AND VALIDATED BY THE FACT THAT THE SOCIAL SECURITY
ADMINISTRATION UNDER HEALTH AND HUMAN SERVICES GRANTED PRO SE APELLANT DEBTOR
STAN J. CATERBONE E DISABILITY BENEFITS IN AUGUST OF 2009 FOR
SYMPTOMS
AND
ILLNESSES RELATED TO U.S. SPONSORED MIND CONTROL, AND IN FACT STATED IN THE AWARD
LETTER THAT DISABILITY WAS DETERMINED TO BEGIN IN DECEMBER OF 2005; THE DATE A PRO
SE PETITIONER STAN J. CATERBONE DECLARED THAT THE SYNTHETIC TELEPATHY HAD GONE FULL­
TIME 24/7, WITHOUT INTERUPTION, TO THIS DAY.

U.S. Supreme Ct. Petition re Lancaster County Prison

Page No. 27 of 40

Monday August 31,2020

by Pro Se Petitioner Stan J. Caterbone • From U.S. Third Circuit Case No. 19-2712 and U.S. District Court 19-2052

REASONS FOR GRANTING THE WRIT
ARGUMENT ONE
PETITIONER Stan J. Caterbone has provided substantial supporting evidence,
especially considering U.S. District Court Judge Jeffrey Schmehl's MEMORANDUM which
states and the U.S. Third Circuit Court of Appeals upheld
n

Whether a complaint fails to state a claim under § 1915 (e)(2)(b)(ii) is governed by
the same standard applicable to motions to dismiss under Federal Rule of Civil Procedure 12(b)
(6), see Toursher v. McCullough, 184 F.3d 236, 240 (3d Cir 1999), which requires the Court to
determine whether the complaint contains "sufficient factual matter, accepted as true, to state
a claim to relief that is plausible on it's face." Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009)
(quotations omitted). Condusory [Law Relating to or being a conclusion of fact presented
without the statement of specific supporting evidence upon which the conclusion is based: .
condusory findings] allegations do not suffice. Id. As Caterbone is proceeding pro se, the Court
construes his allegations liberally. Higgs v. Att'y Gen, 655 F. 3d. 333, 339 (3d Cir 20??)."
".....In other words, a prisoner claiming the he was denied access to the courts must
allege an injury traceable to the conditions of which he complains. Diaz v. Holder, 532 F. App'x
61,63 (3d Cir. 2013) (per curiam) (affirming dismissal of denial of access claim where plaintiff
failed to tie alleged deficiencies in library to harm in underlying action). In general, an actual
injury occurs when a prisoner demonstrates that a "nonfrivilous" and "arguable” claim was lost
because of the denial of access to the courts. Chrisiopher v Harbry, S36 US. 403, 415 (2002
"(The underlying cause of action. ...is an element that must be described in the complaint" Id.
Furthermore, the right to access the courts may be satisfied if the plaintiff has an attorney.
Diaz, 532 F. App'x 63 (citing Round Smith, 30 US. 8178311977 and Peterlin Jeffes, 85S F.
241021104234 Cir. 1988), see abo Peter v City of Phila, 542 F. App'x 1351371434 Cit. 2013)
(per curiam)."

ARE ALL OF PETITIONER CATERBONE'S CLAIMS FRIVILOUS AS JUDGE
SCHMEHL AND VIRTUALLY ALL OF THE OTHER FEDERAL AND STATE JUDGES
CLAIM?
THE DEFENDANTS OF FEDERAL AND STATE COURTS IMPLEMENTED THE USE
OF THREATS, FABRICATED MENTAL HEALTH WARRANTS, AND FALSE
ARRESTS AS FAR BACK AS JUNE OF 1987 TO DISCREDIT ALL OF PETITIONER
CATERBONE'S CLAIMS; USING A HYBRID EFFORT OF COINTELPRO AND U.S.
SPONSORED MIND CONTROL.
THESE PROGRAMS CONTINUE TO THIS DATE IN A COHESIVE EFFORT TO
OBSTRUCT JUSTICE AND PREVENT THE DEFENDANT'S NAMED FROM THE
FINANCIAL
LIABILITY
OF
$MILLIONS
OF
DOLLARS
AND
PUBLIC
HUMILIATION.
THE CIA DID IN FACT - corruptly or by threats or force, or by any threatening letter or
communication, influences, obstruct, or impedes, or endeavors to influence, obstruct, or
impede, the due administration of justice, shall be (guilty of an offense)." Persons are
charged under this statute based on allegations that a defendant intended to interfere with
an official proceeding, by doing thins such as destroying evidence, or interfering with duties
of jurors or court officers.

U.S. Supreme Ct Petition re Lancaster County Prison

Page No. 28 of 40

Monday August 31,2020

by Pro Se Petitioner Stan J. Caterbone - From U.S. Third Circuit Case No. 19-2712 and U.S. District Court 19-2052

THE DEPARTMENT OF DEFENSE DID IN FACT - corruptly or by threats or force, or by
any threatening letter or communication, influences, obstruct, or impedes, or endeavors to
influence, obstruct, or impede, the due administration of justice, shall be (guilty of an
offense)." Persons are charged under this statute based on allegations that a defendant
intended to interfere with an official proceeding, by doing thins such as destroying evidence,
or interfering with duties of jurors or court officers.
THE LANCASTER GENERAL HOSPITAL DID IN FACT - corruptly or by threats or
force, or by any threatening letter or communication, influences, obstruct, or impedes, or
endeavors to influence, obstruct, or impede, the due administration of justice, shall be
(guilty of an offense)." Persons are charged under this statute based on allegations that a
defendant intended to interfere with an official proceeding, by doing thins such as
destroying evidence, or interfering with duties of jurors or court officers.
THE FAIRMOUNT BEHAVIORAL HEALTH SYSTEM DID IN FACT - corruptly or by
threats or force, or by any threatening letter or communication, influences, obstruct, or
impedes, or endeavors to influence, obstruct, or impede, the due administration of justice,
shall be (guilty of an offense)." Persons are charged under this statute based on allegations
that a defendant intended to interfere with an official proceeding, by doing thins such as
destroying evidence, or interfering with duties of jurors or court officers.
THE SOUTHERN REGIONAL POLICE DID IN FACT - corruptly or by threats or force,
or by any threatening letter or communication, influences, obstruct, or impedes, or
endeavors to influence, obstruct, or impede, the due administration of justice, shall be
(guilty of an offense)." Persons are charged under this statute based on allegations that a
defendant intended to interfere with an official proceeding, by doing thins such as
destroying evidence, or interfering with duties of jurors or court officers.
FINANCIAL MANAGEMENT GROUP, LTD., DID IN FACT - corruptly or by threats or
force, or by any threatening letter or communication, influences, obstruct, or impedes, or
endeavors to influence, obstruct, or impede, the due administration of justice, shall be
(guilty of an offense)." Persons are charged under this statute based on allegations that a
defendant intended to interfere with an official proceeding, by doing thins such as
destroying evidence, or interfering with duties of jurors or court officers.
MANHEIM TOWNSHIP POLICE DID IN FACT -corruptly or by threats or force, or by any
threatening letter or communication, influences, obstruct, or impedes, or endeavors to
influence, obstruct, or impede, the due administration of justice, shall be (guilty of an
offense)." Persons are charged under this statute based on allegations that a defendant
intended to interfere with an official proceeding, by doing thins such as destroying evidence,
or interfering with duties of jurors or court officers.
THE LANCASTER CITY POLICE DEPARTMENT DID IN FACT - corruptly or by threats or
force, or by any threatening letter or communication, influences, obstruct, or impedes, or
endeavors to influence, obstruct, or impede, the due administration of justice, shall be
(guilty of an offense)." Persons are charged under this statute based on allegations that a
defendant intended to interfere with an official proceeding, by doing thins such as
destroying evidence, or interfering with duties of jurors or court officers.
OCCUPANTS OF 1252 FREMONT STREET DID IN FACT - corruptly or by threats or force,
or by any threatening letter or communication, influences, obstruct, or impedes, or
endeavors to influence, obstruct, or impede, the due administration of justice, shall be
(guilty of an offense)." Persons are charged under this statute based on allegations that a
defendant intended to interfere with an official proceeding, by doing thins such as
destroying evidence, or interfering with duties of jurors or court officers.

U.S. Supreme Ct. Petition re Lancaster County Prison

Page No. 29 of 40

Monday August 31,2020

by Pro Se Petitioner Stan J. Caterbone - From U.S. Third Circuit Case No. 19-2712 and U.S. District Court 19-2052

LANCASTER COUNTY MDJ ADAM J. WITKONIS DID IN FACT - corruptly or by threats or
force, or by any threatening letter or communication, influences, obstruct, or impedes, or
endeavors to influence, obstruct, or impede, the due administration of justice, shall be
(guilty of an offense)." Persons are charged under this statute based on allegations that a
defendant intended to interfere with an official proceeding, by doing thins such as
destroying evidence, or interfering with duties of jurors or court officers.
THE PENNSYLVANIA SUPREME COURT AND THE PENNSYLVANIA SUPERIOR COURT
DID IN FACT - corruptly or by threats or force, or by any threatening letter or
communication, influences, obstruct, or impedes, or endeavors to influence, obstruct, or
impede, the due administration of justice, shall be (guilty of an offense)." Persons are
charged under this statute based on allegations that a defendant intended to interfere with
an official proceeding, by doing thins such as destroying evidence, or interfering with duties
of jurors or court officers.
THE LANCASTER COUNTY CLERK OF COURT DID IN FACT - corruptly or by threats or
force, or by any threatening letter or communication, influences, obstruct, or impedes, or
endeavors to influence, obstruct, or impede, the due administration of justice, shall be
(guilty of an offense)." Persons are charged under this statute based on allegations that a
defendant intended to interfere with an official proceeding, by doing thins such as
destroying evidence, or interfering with duties of jurors or court officers.
THE FEDERAL BUREAU OF INVESTIGATION, FBI, DID IN FACT - corruptly or by threats
or force, or by any threatening letter or communication, influences, obstruct, or impedes, or
endeavors to influence, obstruct, or impede, the due administration of justice, shall be
(guilty of an offense)." Persons are charged under this statute based on allegations that a
defendant intended to interfere with an official proceeding, by doing thins such as
destroying evidence, or interfering with duties of jurors or court officers.
THE LNP MEDIA GROUP DID IN FACT - corruptly or by threats or force, or by any
threatening letter or communication, influences, obstruct, or impedes, or endeavors to
influence, obstruct, or impede, the due administration of justice, shall be (guilty of an
offense)." Persons are charged under this statute based on allegations that a defendant
intended to interfere with an official proceeding, by doing thins such as destroying evidence,
or interfering with duties of jurors or court officers.
WGAL-TV8 DID IN FACT - corruptly or by threats or force, or by any threatening letter or
communication, influences, obstruct, or impedes, or endeavors to influence, obstruct, or
impede, the due administration of justice, shall be (guilty of an offense)." Persons are
charged under this statute based on allegations that a defendant intended to interfere with
an official proceeding, by doing thins such as destroying evidence, or interfering with duties
of jurors or court officers.
THE LANCASTER COUNTY COMMUNITY-AT-LARGE DID IN FACT - corruptly or by
threats or force, or by any threatening letter or communication, influences, obstruct, or
impedes, or endeavors to influence, obstruct, or impede, the due administration of justice,
shall be (guilty of an offense)." Persons are charged under this statute based on allegations
that a defendant intended to interfere with an official proceeding, by doing thins such as
destroying evidence, or interfering with duties of jurors or court officers.
THE UNITED STATES GOVERNMENT DID IN FACT - corruptly or by threats or force, or by
any threatening letter or communication, influences, obstruct, or impedes, or endeavors to
influence, obstruct, or impede, the due administration of justice, shall be (guilty of an
offense)." Persons are charged under this statute based on allegations that a defendant
intended to interfere with an official proceeding, by doing thins such as destroying evidence,
or interfering with duties of jurors or court officers.
emergency room immediately put me on an intravenous drip of antibiotics for about an

U.S. Supreme Ct. Petition re Lancaster County Prison

Page No. 30 of 40

Monday August 31, 2020

by Pro Se Petitioner Stan J. Caterbone - From U.S. Third Circuit Case No. 19-2712 and U.S. District Court 19-2052

WRONGFUL PROSECUTIONS AND FALSE ARRESTS :
1. September 1,1987
2. September 3/ 1987
3. September 3,1987
4. September 3, 1987
5. September 3, 1987
6. September 3, 1987
7. September 3,1987
8. December 5, 2006 1
9. December 5, 2006 1
10. December 5, 2006 1
11. January 18, 2007 1
12. January 18, 2007 1
13. January 23, 2007 1
14. January 23, 2007 1
15. January 23, 2007 1
16. January 23, 2007 1
17. January 23, 2007 1
18. April 30, 2007 1
19. April 30, 2007 2
20. April 30, 2007 1
21. April 30, 2007 1
22. May 10, 2007 M2
23. May 10, 2007 3M1
24. May 29, 2007 1
25. November 1, 2007 S
26. November 1, 2007 S
27. July 3, 2008
28. July 3, 2008

Cc2706 Terroristic Threats - Ml Quashed/Dismis/Demur Sus
Cc2902-1 Unlawful Restraint - Ml Quashed/Dismis/Demur Sus
Cc3304a2 Criminal Mischief - F3 Nolle Prossed/Withdrawn
Cc33502 Burglary - FI Nolle Prossed/Withdrawn
Cc3701al Robbery - FI Nolle Prossed/Withdrawn
Cc3921a Theft by Unlaw Tak F3 Nolle Prossed/Withdrawn
Cc3933al Unlaw Use Comp F3 Nolle Prossed/Withdrawn
18 §5503 §§ A2 Disorderly Conduct - Unreasonable Noise/ Withdrawn
18 §3926 §§ A4 Theft of Services-Aquisition / Withdrawn
18 §2709 §§ A7 Harassment Repeat In Manner/ Withdrawn
75 § 1543 §§ A Driving While Oper Priv Susp Or Revoked / Withdrawn
75 § 1786 §§ F Driving Without Reqd Insur / Withdrawn
285-2Id No Parking or Stopping Permitted / Withdrawn
285-30a Meter Violation / Withdrawn
18 § 6501 §§ A1 Scatter Rubish Upon Land / Withdrawn
285-2Id No Parking or Stopping Permitted / Withdrawn
285-30a Meter Violation / Withdrawn
18 § 5503 §§A4 Disorderly Conduct Hazardous/Phys Off Not Guilty
18 § 5507 §§A Obstruction of Hwy / Not Guilty
18 §2709 §§ A7 Harassment Repeat In Manner/ Not Guilty
75 § 3111 §§A Disregard Traffic Control Device / Not Guilty
18 § 5104 Resist Arrest/Other Law Enforcement / Withdrawn
18 § 1543 §§ Make Rep/Sell/Etc Off Weap / Nolle Pros
75 § 1543 §§ A Driving While Oper Priv Susp Or Revoked / Not Guilty
75 § 3714 §§ A Careless Driving / Nolle Pros
75 § 3802 §§ Al* DUI: Gen Imp/ Inc of Driv Safely / Nolle Pros
TR000185-08 Driving Under Suspension By PA State Police / Erased Records Wrong
TR000185-08 DUI Charge By PA State Police / Erased - Records
Wrong - CHARGES WERE FROM A COUNTY OUTSIDE PITTSBURG,
PENNSYLVANIA, AND THE REAL DEFENDANT HAD THE SAME JULY 15
BIRTHDAY AND LAST NAME STARTING WITH CAT

29. February 2018 - harassment charge before MDJ Sponaugle
30. February 2019 - harassment charge before MDJ Sponaugle

U.S. Supreme Ct. Petition re Lancaster County Prison

Page No. 31 of 40

Monday August 31,2020

by Pro Se Petitioner Stan J. Caterbone • From U.S. Third Circuit Case No. 19-2712 and U.S. District Court 19-2052

ARGUMENT TWO
Robert Duncan, Scientist and Whistle-blower was contracted by several
military/intelligence/law enforcement agencies, such as DARPA, The CIA,
the Department of Defense, and the Department of Justice to develop the
sophisticated U.S. Sponsored Mind Control Weapons and upon learning
that they were being used on U.S. Civilian Citizens without cause instead
of for national security and to fight crime, Dr. Robert Duncan became a
WHISTLE-BLOWER.
STAN J. CATERBONE TRANSCRIPT
Report 165 Robert Duncan on the Neurotech Targeting of Humanity, Secrecy, &
the Need for Change
Interview February 15, 2020
RAMALLAH
So welcome everyone. Good evening. I'm very happy to be here this evening with Dr. Robert
Duncan. This is Ramallah D from rural Ramallah D reports. And I'm here with a very special
interview today. Robert Duncan has consented to do a live stream. So we are all going to be
treated to a live interview this evening. Robert Duncan, as many people may know, is a scientist
and an author. He's the author of the matrix deciphered, and project soul catcher, which many
people may have read and may know about. And he's requested to introduce himself. So I'm
going to turn the floor over to him right away. And, Robert, do please tell us more because
that's part of what we wanted to start with, really, this evening, your background and who you
are and the work you've done.
DR. ROBERT DUNCAN
Yet You know, I'm somewhat shy about talking about my hip pack crown but I have many
degrees from great universities Ivy League. And I worked for the ABC companies. They're often
called the DARPA projects or the CIA projects for the Department of Justice projects for the
Army Navy. Examples of slips projects are reading brainwaves to control robots, wrote the
artificial intelligence code to track the nuclear, the submarine fleets around the world, robotic
surgery and medicine. And it was it's been quite an interesting career. And the Only have kept
me dumb. And I love my job.
DR. ROBERT DUNCAN
But 1 found out that people were using my work for amoral activities, not just for defense of my
country and to catch criminals. They were using it for other purposes within my own country,
and I could not have that. I I've been in international business consultants, a professor, you
know, long career doing many things. But I got into this line of research, because I was I
thought I would be the first to do human brain communications. I'm sorry, a computer to
human brain communications. And I found out this group of people targeted individuals, which
are complaining about the exact thing that you would expect from a weaponized version of BCI,
or brain computer interface and technologies, or bringing the brain interface and technologists.
And I'm like, this is a bit coincidental, and rarely Am I the first to discover anything. So I did
more research, thoroughly convinced, after working on it, portions of it for the for DARPA, and
then realizing, oh my gosh, this is my work they're using to harm people.
Unknown Speaker
And the work that you were doing was set up in such a way that it could have been used in that
way.
DR. ROBERT DUNCAN
Oh, yeah. Absolutely, big number. We're like two as scientists, and we're compartmentalised.
U.S. Supreme Ct. Petition re Lancaster County Prison

Page No. 32 of 40

Monday August 31,2020

by Pro Se Petitioner Stan J. Caterbone - From U.S. Third Circuit Case No. 19-2712 and U.S. District Court 19-2052

So I was doing let's say I worked on Voice morphing technology well that was supposed to be
used on enemy indications to sound like the general over the battlefield of the adversary and
misdirect them. Well, I see that with T eyes as well. They hear their parents voice voice
morphing and talking about them behind their back and being used in very deceptive ways.
Same with voice recognition into together the way Danny was suddenly finding this being
reported in the community from various people, and then correct practice. And then so that led
me on this. She's It’s been so long is 22 decade journey of researching and alerting the public
to these technologies. I went back in the 90s or 80s rubber duck So we get a sense of the time.
Yeah.
DR. ROBERT DUNCAN

Around 2000, around around 2000. And, you know, I even went with the former head of the FBI
to Congress spoke to the Judiciary Committee, the Armed Forces committee, 23 senators, and
most importantly, the Intelligence Committee and they're supposed to be the oversight. It was
obvious to me that this was MK Ultra on steroids. Same tack to explain us the mind control the
breakdown of the human will and using was programmed assassins or Manchurian candidates
or whatever their desire might be just eliminate the target.
Unknown Speaker
And the further I follow the White Rabbit down the hole more disturbing absolutely incredible.
First of all, thank you for doing that for going to Congress and going and speaking to these
Senate Committees into the Senate Intelligence Committee, etc. It sounds like this was a replay
of the Church Committee of the 1970s. Then because you were coming forward as a god, CIA
whistleblower, and navy and NATO, etc, whistleblower, speaking about this matter. What was
the reception like?
DR. ROBERT DUNCAN

And this is when I lost faith that my government was that event. The Senate Intelligence
Committee said we've never heard of MK ULTRA, and that's their one job. And so both the FBI
you know, the head of the FBI and I look at each other like. Oh, this is not going to go well.
They're starting off with a lie. They’ve never heard of this. But Frank church over Ironically, I
ended up in Idaho. In Frank church, the senator, you are, yeah, where I am that started the
investigations into bail true. And now, you know, it's come through so many name changes, we
just use that as an anchor point. But who knows what the new budget is at this point?
Unknown Speaker
When you see this is the whole thing, right. And this is part of what I hope we can talk about a
little bit further. This is the whole issue, not just of compartmentalization, that about secrecy.
There's a lot there's a huge interest in keeping things secret, right?
DR. ROBERT DUNCAN

Well, and I learned why is because most humans want to do good. They want to believe they're
doing good and especially we work for government, you know, you feel patriotic and feel good,
that pride, you know, blowing through your your veins and If you knew the truth, you wouldn’t
do your job. And so they have to keep it compartmentalize.
Unknown Speaker
Oh, you mean they're actually fooling the very people who are working for them?
DR. ROBERT DUNCAN

Yes, correct, only a very few at the highest levels know what's going on. So they have to fool
everybody down the chain works well. It works well, but their house of cards of lives is going to
clean flap soon. And there'll be quite a blowback from
Unknown Speaker
Oh, I'm so happy to hear that. Considering, you know, the subject that we are dealing with, and
the fact that would have been reporting on for five years is precisely this the the consequences
and the outcome of these compartmentalize and secretive programs that have wreaked havoc
on this country and worldwide actually, thing I wanted to ask you, how is it How is it that MK
U.S. Supreme Ct. Petition re Lancaster County Prison

Page No. 33 of 40

Monday August 31,2020

by Pro Se Petitioner Stan J. Caterbone - From U.S. Third Circuit Case No. 19*2712 and U.S. District Court 19-2052

Ultra has become an a thing that is Now having worldwide consequences that people are
reporting this around the world, the same thing, the same exact thing.
DR. ROBERT DUNCAN
Yeah. And that's kind of how I test my subjects. And I've done 2000 interviews, please. And
they all started to sound alike. This is the script. It doesn't matter what country you're from
language you speak, what your education level is or anything. They're using, like, basically
seven or eight different scripts. They're not very creative and like God, let's put it that way to
figure that out.
DR. ROBERT DUNCAN
And, and, you know, it's worldwide weapon. You can't put artificial electronic fences and
boundaries around tax base, no borders. So no, it's world wide and it was intended to be
worldwide for the New World Order government. Unless, you know, George Bush Senior talked
about New World Order he was head of the CIA. Even we have a candidate Barack Obama's Vice
President Biden said the New World Order is of utmost importance and one of his latest
speeches, so it really doesn't matter which candidate you vote for. It seems like they're all on
board for this global takeover.
Unknown Speaker
Would you say we are in the New World Order currently?
DR. ROBERT DUNCAN
Yes, and no, it's just gonna get worse. All military technologies will eventually seep into the
policing forces. So the you know, the United States that's already happened to them. Yeah,
that's already happening. So yeah, we're in the middle of the transition. They they have these
leave for more Countries that go China, Russia, North Korea and Iran, and then the rest of the
worlds kind of nothing. We in here, here's another theory. Why would you want democracy in
every country? Well, it's because of Mind Control weapons, where you can control who gets into
power. So the CIA gets especially interested. When someone wins, let's say like Donald Trump
or jesse ventura who I interviewed with governor of Minnesota, yes, the very thing he said
Susie Gada and 11 or 12 CIA guys interviewed him at the in, you know, the base of the
government mansion or whatever and asked them how did you get elected? You were not
supposed to win. And so they were just curious why their their voting models were wrong.
Unknown Speaker
Wait a minute, I thought the CIA knew everything controlled everything.
DR. ROBERT DUNCAN
Yeah, well, sometimes they're wrong. Sometimes they get it wrong, and that's what they want
to learn. But the point is to give the illusion of democracy and freedom that your vote counts,
but not actually allow it to happen in terms of global events and right they can they control it
through the media, they maintain this far as that, you know, we are living in a separate nation,
we have a democracy, etc. But it appears that from everything you are saying that the military
and intelligence powers in this country? Well, we know they have a connection with the
intelligence powers in other countries as well around the world. And they appear to be running
the entire show the world show, not just the US show, and you know, I would question the
whole Russia China thing as well. I mean, are they really separate countries are they really
operating separately from The CIA and the god oh wait, I don't know about that I was
brainwashed in the cold war and so I'm supposed to believe Russia's or enemy. No. right I
mean that's all be living in America that's what they are. Yeah doctrine ated to believe is an
enemy China’s an enemy they’re competing with. Yeah, etc.
DR. ROBERT DUNCAN
And so it is interesting because without a bow let's just say the whole new world order thing
works out we're one world government Well, now we have no one to kill anymore in our we
have no enemies except collapse and our entire the US economy is based on a war machine. I
generalized and our president generalized our setting. Be aware this is what's going to happen.
If you do not stay vigilant, it will become the entire economy and they will create wars just to
U.S. Supreme Ct. Petition re Lancaster County Prison

Page No. 34 of 40

Monday August 31,2020

by Pro Se Petitioner Stan J. Caterbone - From U.S. Third Circuit Case No. 19-2712 and U.S. District Court 19-2052

keep people employed. And unfortunately, it became true and then we have president JFK, who
I think was just about to spill the beans more exactly about these mind control weapons really
got access via Manchurian program the brainwash to know assassin, so it gets very deep.
DR. ROBERT DUNCAN
So this suggests that these particular programs these mind control programs, these neuro tech,
targeting programs and neuro disruption programs, they are sort of crammed a lot into the
ultimate secret that the do DCA wants to keep forever secret. And they really think they can get
away with it. I mean, how have they gotten away with it so far? Up to now, using many
techniques like counter intelligence was A lot of money on counterintelligence some What does
that mean? Literally dumbing down the population so we create cover stories like alien
abductions or okay that's so disinfo mind control right through television programming and
stories and the community etc about aliens UFOs flying saucers abductions military, which are
actually military abductions from women, etc, things like that. But are they also using
technology to dumb people down?
["
U.S. Sponsored Mind Control Systems are also used to compliment these illegal
programs to silence WHISTLEBLOWERS and others that our government recggnizes_as
a threat to their illegal strategies and those that are seeking the TRUTH.1 Synthetic
Telepathy Coupled with Electromagnetic Weapons used for pain have been the
ELECTRONIC WEAPONS OF CHOICE by the PERPETRATORS committing these haneus
crimes against, PRO SE PLAINTIFF STAN J. CATERBONE since at least 2005. Samuel P.
Caterbone, Jr., the father of PRO SE PLAINTIFF STAN J. CATERBONE, U.S. Navy 1943 to
1947 was a victim of MK-ULTRA and experienced the same effects since at least the
early 1960's. Brainwashing techniques via electro-shock therapy, synthetic telepathy,
vandalism to property, extortion of property and businesses were first used against
him - a prototype for later use against PRO PLAINTIFF STAN J. CATERBONE. Ironically
the Lancaster City Police Department were the AGENTS OF CHOICE in both
occurrences.
PRO SE PLAINTIFF STAN J. CATERBONE'S brother, Samuel A. Caterbone, (Sammy)
(U.S. Air Force 1969-1971) received the same victimization through the use of the LSD
experiments of the same program while in the United States Air Force and after being
discharged.
PRO SE PLAINTIFF STAN J. CATERBONE declared that after an explosive harassment
campaign, connection with the SYNTHETIC TELEPATHY occurred in 2004-2005. The
synthetic telepathy first consisted of months of NON-STOP INTERROGATIONS BY MALE
SUBJECTS WHO IDENTIFIED THEMSELVES AS CIA OPERATIVES. The interrogations
lasted hours upon hours at a time and covered just about every aspect of Pro Se
PLAINTIFF STAN J. CATERBONE'S life. The "HANDLERS", for lack of a better term, not
only focused on the WHISTLEBLOWING ACTIVITIES OF ISC IN 1987, but also covered
mundane everyday experiences, as a form to harass and torture.
In late spring of 2005, the "HANDLERS" introduce females to the sessions. To this
day, the torture consists of the same, interrogations mixed in with harassment, sex,
and humor. It is the opinion of Pro Se PLAINTIFF STAN J. CATERBONE, that the only
way to keep from desensitizing and numbing the harassment and pain is to experience
pleasure and laughter so as to keep the magnitude of the pain at it's highest level.
THIS CAN BE SUBSANTIATED AND VALIDATED BY THE FACT THAT THE SOCIAL
SECURITY ADMINISTRATION UNDER HEALTH AND HUMAN SERVICES GRANTED Pro Se
PLAINTIFF STAN J. CATERBONE DISABILITY BENEFITS IN AUGUST OF 2009 FOR
SYMPTOMS AND ILLNESSES RELATED TO U.S. SPONSORED MIND CONTROL, AND IN
FACT STATED IN THE AWARD LETTER THAT DISABILITY WAS DETERMINED TO BEGIN
U.S. Supreme Ct. Petition re Lancaster County Prison

Page No. 35 of 40

Monday August 31.2020

by Pro Se Petitioner Stan J. Caterbone - From U.S. Third Circuit Case No. 19-2712 and U.S. District Court 19-2052

IN DECEMBER OF 2005; THE DATE PRO SE PLAINTIFF STAN J. CATERBONE DECLARED
THAT THE SYNTHETIC TELEPATHY HAD GONE FULL-TIME 24/7, WITHOUT
INTERUPTION, TO THIS DAY.
The NEXUS to International Signal and Control, Pic., or ISC; the CIA; the NSA;
Lancaster, Pennsylvania; and U.S. Sponsored Mind Control conies through ISC Board of
Director, Admiral Bobby Ray Inman. Bobby Ray Inman was the former Director of the
NSA, and The Director of U.S. Naval Intelligence. Like today, when foreign police is
politicized for partisan reasons, patriots and traitors are often confused as being one in
the same. The operations by ISC and the respective intelligence agencies were
conspired for tactical and logistical reasons that the Department of Defense and others
could not find a way to communicate it's objectives to Congress for approval without
compromising it’s missions. ISC founder James Guerin and others were indicted in
1991 and sentenced to prison terms in 1992.
!

One must remember that the U.S. Sponsored Mind Control Programs were the
direct result of the Soviet Union's accomplishments using Microwave Technologies to
bombard the U.S. Embassy in Moscow as early the 1950's and the use of German
Psychiatrists by Adolf Hitler in the 1940’s developing psychological warfare programs.
Both the German and Soviet Mind Control Programs predate that of the United States.
Thus, the beginning of the Mind Control Arms Race. Just this year, the Trump
Administration introduced the NEW MILITARY SPACE AGENCY, in an effort to formalize
the weaponization of Space and Microwave Weapons under one agency. This will
convert the Department of Defense programs and that of the U. S. Intelligence
Agencies to this new Military Space Agency.

U.S. Supreme Ct. Petition re Lancaster County Prison

Page No. 36 of 40

Monday August 31,2020

by Pro Se Petitioner Stan J. Caterbone - From U.S. Third Circuit Case No. 19-2712 and U.S. District Court 19-2052

REMOTE NEURAL MONITORING:
SHOW THEY SPY ON YOUR THOUGHTS
Remote Neural Monitoring: How They Spy on Your Thoughts - Anonymous - CLICK ON
THIS LINKS
How many times did you have thoughts that you never wanted to share with anyone,
and have been constantly worried at the thought of someone ever finding out about
these thoughts?
All of us have been through this process, and the new and improved technologies being
developed around the world, supposedly to deal with crime and terrorism, and
inadvertently intrude on one's privacy, should probably bring us all to the brink of
paranoia.
These technologies are funded by governments at the highest level and some of the
countries involved include USA, UK, Spain, Germany and France.
Recently, the infamous National Security Agency (NSA) of the U.S.A. has developed a
very efficient method of controlling the human brain.
https: / 7youtu.be/ZBsIsLRHCEw
EDWARD SNOWDEN IN 2014 INTERVIEW WITH NBC NEWS BRIAN WILLIAMS
DISCLOSING NSA'S REMOTE NEURAL MONITORING PROGRAM LIVE ON THE AIR
https://youtu.be/ZBsIsLRHCEw
This technology is called Remote Neural Monitoring (R.N.M.) and is expected to
revolutionize crime detection and investigation.
R.N.M. works remotely (ever wondered why have we all been driven relentlessly
towards wireless systems?) to control the brain under the objective to detect any
criminal thought taking place inside the mind of a possible culprit. Inevitable question:
How can you isolate a criminal thought if you do not have a comparative measure of
non-criminal thoughts?
This undertaking is based on two principles:
• The research studies have shown that the humanoid intellect thinks at a speed of
about 5 kilobits per second and, therefore, does not have the capability to contest
with supercomputers acting via satellites, implants and biotelemetry.
• The human brain has a characteristic set of bioelectric resonance structure. By
using supercomputers, the R.N.M. system can home in on it, and send messages
through an embedded individual's nervous system in order to affect their
performance in a preferred way.
The entire system has been developed after about 50 years (!) of neuroelectromagnetic human experimentations, claimed to be involuntary, but there is no
evidence to support this claim. According to many scientists involved in this program
(their names are not revealed for obvious reasons), within a few years it is expected
that DNA microchips, under the guise of medical breakthroughs that will be presented
to launch the disease cure processes on speed and efficiency, will be implanted in the
humanoid cereberum, which would make it inherently controllable. R.N.M. will then
have the ability to read and govern a person's emotional mental procedures along with
the involuntary and visions.

U.S. Supreme Ct. Petition re Lancaster County Prison

Page No. 37 of 40

Monday August 31,2020

by Pro Se Petitioner Stan J. Caterbone - From U.S. Third Circuit Case No. 19-2712 and ll.S. District Court 19-2052

ADMIRAL BOBBY RAY INMAN, THE GO-TO GUY FOR BLACK OPS PROGRAMS AND
DEFENSE CONTRACTS
In the following article by Tom Porter in 1996 documents the Bobby Ray Inman Mind
Control Connection through SAIC Corporation:
Brief History Of MK-Ultra, CIA Program On Mind Control by Tom Porter ©1996 All
Rights Reserved
"S.A.I.C. involvement in 1993 American Parapsychological Association meeting
arrangements, via their 'Cognitive Sciences Laboratory'. Science Applications
International Corporation is a big time defense contractor, has held the largest number
of research contracts of any defense contractor. Bobby Ray Inman is on its board of
directors, among others."
"In December 1993 President Clinton nominated Admiral Bobby Ray Inman to be
Secretary of Defense. Inman served in a series of senior intelligence positions
including Director of Navel Intelligence (1974-76), Vice Director of the Defense
Intelligence Agency (1976-77), Director of the National Security Agency (1977-81) and
Deputy Director of the Central Intelligence Agency (1981-1982). In the early 1980s
Inman, then a private businessman, was named to the shadow board International
Signal and Control. These boards are required for U.S. defense companies wholly or
partly owned by foreigners and are supposed to guarantee that no U.S. secrets get into
foreign hands.
In 1991 James Guerin, founder and chairman of International Signal and Control (ISC),
pleaded guilty to selling arms to apartheid South Africa and agreed to testify against
others. Ten American, seven South Africans and three South African companies were
charged in the case. This case was one of the most significant U.S. violations of the of
U.S. export laws and the mandatory U.N. arms embargo.
In April 1992, prior to Guerin’s sentencing, Inman, wrote the judge that between 1975
and 1978 Guerin "voluntarily provided the U.S. government with information obtained
during his foreign travels which was of substantial value, particular that related to the
potential proliferation of nuclear weapons." Several defendants in the ISC case claimed
the U.S. government knew of their sales to South Africa and that they provided
information on South Africa's defense, including its nuclear weapons program. Guerin
was sentenced to 15 years in jail. Guerin could have received up to 61 years.
In January 1994 Inman withdrew his nomination for Secretary of Defense. In response
to his withdrawal I wrote this letter that appeared in the New York Times. - Richard
Knight
THE NEW YORK TIMES EDITORIALS/LETTERS FRIDAY JANUARY 28, 1994
South Africa Link
To the Editor:
The withdrawal of Bobby Ray Inman's nomination for Secretary of Defense brought to
public attention the case of International Signal and Control, a defense and technology
company. James Guerin, the company's founder, was recently sentenced to jail for
illegal arms sales to South Africa, as you report in "Inman Faced Scrutiny on Jailed
Arms Dealer" (news article, Jan. 20).
As one who has followed International Signal and Control for years, I believe there are
U.S. Supreme Ct. Petition re Lancaster County Prison

Page No. 38 of 40

Monday August 31,2020

by Pro Se Petitioner Stan J. Caterbone • From U.S. Third Circuit Case No. 19-2712 and li.S. District Court 19-2052

many unanswered questions in this case involving our own Government, its
intelligence agencies and United States implementation of the United Nations arms
embargo against South Africa.
Ties between International Signal and South Africa go back to the 1970's. In February
1976 the Department of State granted approval of a contract for the study of maritime
command and control systems with Barlow Communications of South Africa. In
January 1978, because of United States support for the 1977 United Nations arms
embargo resolution, the State Department revoked the contract. Yet it appears
International Signal continued its involvement in this project. According to the
indictment of Mr. Guerin, International Signal sold South Africa inertial and land
navigation systems and gyroscopes for aircraft, missiles and helicopters. International
Signal also made millions of dollars in other illegal sales to South Africa including
military-related technology and land mines. Did United States intelligence agencies
allow International Signal to continue its illegal operations for intelligence on South
Africa's nuclear and other military programs, or to support South Africa's military for
other reasons?
Mr. Inman has acknowledged that as director of Naval Intelligence in the mid-70's, he
knew of the first International Signal contract and was aware of later information
supplied by the company on South Africa's nuclear program. Most likely, these ties had
some bearing on Mr. Inman's appointment as a director on the International Signal
shadow board. Such boards protect United States interests and secrets. Did Mr. Inman
ask questions about large contracts going to small companies and countries like South
Africa and Panama? The central question, as with the IRAN-CONTRA SCANDAL, is how
to establish effective procedures to prevent United States intelligence agencies, or
people working with them, from subverting laws established by Congress. If directors
on shadow boards such as that of International Signal are just "window dressing,"
Congress should tighten the system and make directors accountable.
Congress should also examine the role of intelligence agencies in this case. Company
officials say they continued providing Information to the Central Intelligence Agency
into the 80's, while illegal sales occurred.
Mr. Inman says the United States Government never gave Mr. Guerin permission to
violate the arms embargo against Smith Africa. Did the C.I.A. know of these violations
of the embargo? If the C.I.A. was aware and took no steps to stop the illegal said, it
was effectively a partner of International Signal in arming apartheid South Africa."
RICHARD KNIGHT
New York, Jan. 21, 1994
The writer is a research associate for the Africa Fund, a nonprofit human rights
organization.

U.S. Supreme Ct. Petition re Lancaster County Prison

Page No. 39 of 40

Monday August 31,2020

by Pro Se Petitioner Stan J. Caterbone - From U.S. Third Circuit Case No. 19-2712 and U.S. District Court 19-2052

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,
Stan J. Caterbone, Pro Se Petitioner
Date: August 31, 2020

Date: August 31, 2020
£.

Stan/J. Caterbone, Pro Se Litigant
Adtranced Media Group
www.amQqiobalentertainmentaroup.com
Linkedin Professional Networking Profile (click herel
Twitter for THE ADVANCED MEDIA GROUP

U.S. Supreme Ct. Petition re Lancaster County Prison

Page No. 40 of 40

Monday August 31,2020

